<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2019</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]



 
  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2019

                              ----------                              


                        WEDNESDAY, MAY 16, 2018

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:30 p.m. in room SD-192, Dirksen 
Senate Office Building, Hon. Shelley Moore Capito (chairman) 
presiding.
    Present: Senators Capito, Murkowski, Boozman, Lankford, 
Tester, Shaheen, and Baldwin.

                    DEPARTMENT OF HOMELAND SECURITY

                   U.S. Customs and Border Protection

STATEMENT OF MR. TODD OWEN, EXECUTIVE ASSISTANT 
            COMMISSIONER, OFFICE OF FIELD OPERATIONS


           opening statement of senator shelley moore capito


    Senator Capito. Welcome, everyone. I call this hearing of 
the Subcommittee on Homeland Security to order. This is the 
subcommittee's second hearing of this budget cycle. We are here 
today to review the role of the Department of Homeland Security 
in stopping the flow of opioids, methamphetamines, and other 
dangerous drugs.
    I would like to say that while Senator Tester will be here 
shortly, in the interest of time, and also the fact that we're 
going to have a vote around 3:00, we're going to push ahead, 
although it's not due to a lack of interest. I also would like 
to say personally that this is an issue that's extremely 
important to me, as a member of the State that's most deeply 
affected by this opioid crisis.
    We thank Customs and Border Protection's Todd Owen, 
Immigration and Customs Enforcement's Derek Benner, and Science 
and Technology Directorate's Andre Hentz for agreeing to appear 
before our subcommittee today. This is an outstanding panel to 
help our subcommittee to get a more detailed understanding on 
this topic. Each witness is appearing before our subcommittee 
for the first time, and we look forward to hearing from all of 
them.
    I am also very pleased to be joined here shortly by Senator 
Tester. Senator Tester and I are off to a good working start 
here for the fiscal year 2019 process.
    The Department of Homeland Security is one of the many 
agencies that are fighting this ongoing battle with the opioid 
crisis. The Appropriations Committee and many other 
congressional committees are working to ensure that the entire 
Federal Government is coordinating across its many agencies to 
tackle this problem, and it is important for this subcommittee 
to understand the unique roles that the Department of Homeland 
Security play.
    One of the toughest challenges the Department of Homeland 
Security is charged with is the careful balancing act of 
stopping the flow of illicit goods and people across our 
borders while facilitating the free flow of commerce, which is 
very important to our economy. With its broad authority to 
enforce U.S. customs and trade laws, the Department is uniquely 
positioned to identify and intercept the movement of contraband 
not only through our Nation's designated land, air, and sea 
ports, but also across our border between the legal ports of 
entry.
    Despite the commendable efforts of thousands of the 
Department's frontline officers and agents, and significant 
investments in intelligence and technology, we know that most 
illegal drugs in the United States enter our country in this 
manner. Once inside the United States, these drugs are quickly 
distributed via highly complex and often dynamic underground 
networks that run through the heart of our country. 
Unfortunately, their final destinations in our communities, 
many of them rural, are in places like my home State of West 
Virginia.
    It saddens and angers me that in 2016, according to the 
U.S. Department of Health and Human Services, West Virginia 
experienced the highest rate of opioid overdose deaths in the 
United States, a rate of 43.4 deaths per 100,000 people. By 
comparison, this rate is 24 times the rate of 1.8 deaths per 
100,000 people in the year 1999.
    The West Virginia Health Statistics Center's last count for 
2017 indicates 909 of my fellow West Virginians died of drug 
overdoses last year. Of those lives lost, 529 were fentanyl-
related and 246 were heroin-related. So more than 85 percent of 
West Virginia drug deaths last year could be attributed to just 
these two types of opioids.
    This subcommittee is committed to doing more to support the 
Department to stop this flow of dangerous drugs into our 
communities and to working with other subcommittees to ensure 
the Department's efforts are complementary and coordinated with 
other Federal, State, and local agencies.
    The recently enacted appropriations bill provided 
significant new resources to counter opioids, including the 
highest ever funding level for this purpose for each component 
represented here today. For the first time ever, this bill 
provided significant funding for opioid detection equipment and 
for research to improve those detection capabilities.
    We want to build upon these important first steps, and we 
hope that hearing from our witnesses today will raise awareness 
of the role the Department of Homeland Security can play in 
this fight to help lay this foundation for our subcommittee's 
work in this area.
    Again to our witnesses, we appreciate your testimony and 
your willingness to answer questions from members of this 
subcommittee.
    [The statement follows:]

           Prepared Statement of Senator Shelley Moore Capito
    Welcome everyone. I call this hearing of the Subcommittee on 
Homeland Security to order. This is the Subcommittee's second hearing 
of this budget cycle, and we are here today to review the role of the 
Department of Homeland Security in stopping the flow of opioids, 
methamphetamines, and other dangerous drugs.
    We thank Customs and Border Protection's Todd Owen, Immigration and 
Customs Enforcement's Derek Benner, and the Science and Technology 
Directorate's Andre Hentz for agreeing to appear before our 
Subcommittee today. This is an outstanding panel to help our 
Subcommittee to get a more detailed understanding of this topic. Each 
witness is appearing before our Subcommittee for the first time and we 
look forward to hearing from all of them.
    I am also very pleased to be joined again by our Ranking Member 
Senator Tester. We are off to a good start and look forward to 
continuing our work together throughout the fiscal year 2019 process.
    The Department of Homeland Security is one of many Federal agencies 
that is working to combat the ongoing opioid crisis. The Appropriations 
Committee and many other Congressional Committees are working to ensure 
that the entire Federal government is coordinating across its many 
agencies to tackle this problem, and it is important for this 
Subcommittee to understand the unique roles of the Department of 
Homeland Security.
    One of the toughest challenges the Department of Homeland Security 
is charged with is the careful balancing act of stopping the flow of 
illicit goods and people across our borders while facilitating the free 
flow of commerce, which is so important to our economy.
    With its broad authority to enforce U.S. customs and trade laws, 
the Department is uniquely positioned to identify and intercept the 
movement of contraband not only through our nation's designated land, 
air, and sea ports but also across our border between legal ports of 
entry. Despite the commendable efforts of thousands of the Department's 
frontline officers and agents and significant investments in 
intelligence and technology, we know that most illegal drugs in the 
United States enter our country in this manner.
    Once inside the United States, these drugs are quickly distributed 
via highly complex and often dynamic underground networks that run 
through the heart of our country. Unfortunately, their final 
destination is our communities, many of them rural, in places like my 
home state of West Virginia.
    It saddens and angers me that in 2016, according to the U.S. 
Department of Health and Human Services, West Virginia experienced the 
highest rate of opioid-related overdose deaths in the United States?a 
rate of 43.4 deaths per 100,000 people. For comparison, this rate is 24 
times the rate of 1.8 deaths per 100,000 people in 1999.
    The West Virginia's Health Statistics Center's last count for 2017 
indicates that 909 West Virginians died of drug overdoses last year. Of 
these lives lost, 529 were fentanyl-related deaths and 246 were heroin-
related--so more than 85 percent of West Virginia drug deaths last year 
can be attributed to just two types of opioids.
    This Subcommittee is committed to doing more to support the 
Department in helping stop the flow of dangerous drugs into our 
communities and to working with other Subcommittees to ensure the 
Department's efforts are complimentary and coordinated with other 
Federal, state, and local agencies.
    The recently enacted appropriations bill provided significant new 
investments to counter opioids, including the highest-ever funding 
level for this purpose for each component represented here today. For 
the first time ever, this bill provided specific funding for opioid 
detection equipment and for research to improve those detection 
capabilities.
    We want to build upon those important first steps, and we hope that 
hearing from our witnesses today will raise awareness about the role of 
the Department of Homeland Security in this fight and will help lay the 
foundation for our Subcommittee's work in this area.
    Again, to our witnesses, we appreciate your testimony and your 
willingness to answer questions from members of this Subcommittee.
    I will now turn to our distinguished Ranking Member, Senator Tester 
[,then to our full committee Chairman, Senator Shelby][, and then to 
our full Committee Vice Chairman, Senator Leahy] for any opening 
remarks [he/they] may have before asking our witnesses to proceed with 
their testimony.
    Then we will allow each Senator, in order of arrival, seven minutes 
for any statements or questions they may have.
    Thank you.

    Senator Capito. So with that, since I'm here all by myself, 
and to have the most maximum of our time together, I'll go 
ahead and recognize Mr. Owen for his statement to the 
Committee.
    Thank you for coming.

                    SUMMARY STATEMENT MR. TODD OWEN

    Mr. Owen. Okay. Thank you. Chairman Capito, Ranking Member 
Tester, when you arrive, and distinguished members of the 
subcommittee, thank you for the opportunity to appear today and 
discuss the role of U.S. Customs and Border Protection in 
combating the flow of dangerous illicit drugs into our country. 
As America's unified border security agency, CBP plays a 
critical role in our Nation's efforts to keep dangerous drugs 
from entering our communities. Every day, over 1 million 
travelers cross our borders, 340,000 in the air environment, 
55,000 on cruise ships and small vessels, and 700,000 across 
our land borders with Mexico and Canada. Each day, 285,000 
privately owned vehicles cross our land borders, as do 78,000 
commercial trucks, railcars, and maritime containers. And with 
the exponential growth in e-commerce, more than 1.7 million 
parcels enter our country through the international mail 
facilities and express courier hubs on a daily basis.
    Each of these pathways presents differing levels of threat 
for the introduction of contraband into the United States. CBP 
addresses these potential threats by leveraging advanced 
electronic data, automated targeting systems, and intelligence-
driven strategies, and by using various types of detection 
technology as part of our multilayered, risk-based approach to 
enhance the security of our borders.
    Interdicting illicit drugs in the border environment is 
challenging and complex. CBP, with the support of Congress, has 
made significant investments in improvements in our drug 
detection and interdiction technology and targeting 
capabilities. The recently passed Consolidated Appropriations 
Act of 2018 supports CBP's mission through investments in 
border infrastructure and technology, port security, and 
recruitment and retention efforts. The fiscal year 2018 omnibus 
provided over 224 million for Non-Intrusive Inspection 
equipment, 52 million for intelligence and targeting 
capabilities at the National Targeting Center, 30 million for 
opioid detection and identification equipment and laboratory 
support, and over 7 million to hire an additional 328 CBP 
officers at our ports of entry. We are very appreciative of 
Congress' continued support for the CBP mission.
    While most illicit drug-smuggling attempts occur on our 
southwest land border ports of entry, the smuggling of illicit 
narcotics, particularly fentanyl and similar opioids in the 
international mail and express courier environments, pose a 
significant challenge. To counter this growing threat, CBP, in 
collaboration with the U.S. Postal Service, has been working to 
receive advanced electronic data for all mail parcels 
containing merchandise similar to what is provided by the 
express courier companies. Having this advanced electronic data 
allows CBP to more effectively target those parcels likely to 
contain contraband.
    Currently, CBP is receiving advanced electronic data on 
over 50 percent of the postal packages, and expects to reach 70 
percent by the end of this year. Additionally, CBP has deployed 
new testing equipment, giving officers the ability to identify 
unknown substances in real time so that appropriate enforcement 
actions can be taken. We have increased our staffing at the top 
six mail facilities by 20 percent. And we have trained all our 
narcotics detection K9s working at the mail facilities, express 
courier hubs, and international airports to detect fentanyl.
    As a result of these efforts, we are seeing an increase in 
the fentanyl interdiction at the mail and express courier 
facilities. In fiscal year 2015, CBP seized 50 pounds of 
fentanyl in these environments, and in 2016, 81 pounds were 
seized. Fiscal year 2017, 335 pounds of fentanyl were seized, 
and to date, in fiscal year 2018, we have seized over 250 
pounds of fentanyl, again in the mail and express courier 
environments. We will exceed Fiscal year 2017's seizure totals 
at our mail facilities by this summer.
    Nationwide to date in fiscal year 2018, CBP officers have 
seized more than 39,000 pounds of methamphetamine, 37,000 
pounds of cocaine, over 2,700 pounds of heroin. Over 1,100 
pounds of fentanyl in total have been seized across all ports 
of entry: mail, express, and along the southwest border. And 
over 25 million in currency has also been seized as attempts 
were made to smuggle the cash out of the country. Each day, CBP 
officers take positive actions to keep our communities safe, as 
these seizures demonstrate.
    In closing, the fiscal year 2019 President's budget 
recognizes the seriousness and evolving threats and dangers 
that our Nation faces. With continued support from Congress, 
CBP, in coordination with our law enforcement partners, will 
continue to refine and further enhance the effectiveness of our 
detection and interdiction capabilities to prevent the illegal 
entry of narcotics into the United States.
    Chairman Capito, distinguished members of the subcommittee, 
thank you for the opportunity to testify today. I look forward 
to your questions.
    Thank you.
    [The statement follows:]

                 Prepared Statement of Mr. Todd C. Owen
                              introduction
    Chairwoman Capito, Ranking Member Tester, and distinguished Members 
of the Subcommittee, thank you for the opportunity to appear today to 
discuss the role of U.S. Customs and Border Protection (CBP) in 
combating the flow of dangerous narcotics, including opioids, synthetic 
opioids such as fentanyl, and methamphetamine, into the United States. 
The opioid crisis is one of the most important, complex, and difficult 
challenges our Nation faces today, and was declared a National 
Emergency by President Donald Trump in October of last year.\1\ 
According to the Centers for Disease Control and Prevention (CDC), 
opioids--which include prescription opioids, heroin, and synthetic 
opioids--killed more than 42,000 people in the United States in 
2016.\2\ The threats posed by methamphetamine have remained prevalent; 
the rate of drug overdose deaths involving methamphetamine more than 
doubled between 2010 and 2014.\3\ The CDC attributed 7,663 overdose 
deaths in the United States to methamphetamine in 2016.\4\
---------------------------------------------------------------------------
    \1\ Per https://www.whitehouse.gov/briefings-statements/president-
donald-j-trump-taking-action-drug-addiction-opioid- crisis/
    \2\ https://www.cdc.gov/drugoverdose/index.html
    \3\ https://www.cdc.gov/nchs/data/nvsr/nvsr65/nvsr65_10.pdf.
    \4\ https://www.drugabuse.gov/related-topics/trends-statistics/
overdose-death-rates
---------------------------------------------------------------------------
    As America's unified border agency, CBP plays a critical role in 
preventing illicit narcotics from reaching the American public while 
facilitating lawful travel and trade, protecting the United States from 
terrorist threats, and preventing the illegal entry of inadmissible 
persons and contraband. The President's fiscal year 2019 Budget 
includes $16.7 billion in total discretionary and mandatory funding to 
help enable CBP to achieve our complex and vital mission with the right 
combination of talented and dedicated personnel, intelligence-driven 
and risk-based strategies, collaborative partnerships, tactical 
infrastructure, and advanced technology.
    The recently passed Consolidated Appropriations Act of 2018 
supports CBP's mission through investments in border infrastructure and 
technology, port security, and recruitment and retention efforts. We 
are eager to put this funding to work to improve our nation's security. 
CBP's multi- layered, risk-based approach to interdict drugs at and in 
between our Ports of Entry (POEs)- including in the international mail 
and express consignment courier (ECC) environments- leverages targeting 
and intelligence-driven strategies that enhance the security of our 
borders and our country. This layered approach reduces our reliance on 
any single point or program and extends our zone of security outward, 
ensuring our physical border is not the first or last line of defense, 
but one of many.
            narcotics trends, interdictions, and challenges
    Along the more than 5,000 miles of border with Canada, over 1,900 
miles of border with Mexico, and approximately 95,000 miles of 
shoreline, CBP is responsible for preventing the illegal entry of 
people and contraband at and between the POEs. Illicit drug 
interdictions in the border environment is both challenging and 
complex. Drug Trafficking Organizations (DTOs) and Transnational 
Criminal Organizations (TCOs) continually adjust their operations to 
circumvent detection and interdiction by law enforcement, quickly 
taking advantage of technological and scientific advancements and 
improving fabrication and concealment techniques.
    In fiscal year 2018 to-date, the efforts of Office of Field 
Operations (OFO) and U.S. Border Patrol (USBP) personnel resulted in 
the seizure of more than 545,000 lbs. of narcotics including over 
38,000 lbs. of methamphetamine, over 35,000 lbs. of cocaine, and over 
2,700 lbs. of heroin.\5\ CBP seizures of illicit fentanyl have 
significantly increased from approximately two lbs. seized in fiscal 
year 2013 to approximately 1,131 lbs. seized by OFO and USBP in fiscal 
year 2017.\6\ Approximately1,218lbs. of illicit fentanyl have already 
been seized in fiscal year 2018.\7\ Fentanyl is the most frequently 
seized illicit synthetic opioid, but CBP has also encountered 18 
fentanyl analogues.\8\
---------------------------------------------------------------------------
    \5\ Effective 03/31/2018 per https://www.cbp.gov/newsroom/stats/
cbp-enforcement-statistics
    \6\ Per https://www.cbp.gov/newsroom/stats/cbp-enforcement-
statistics
    \7\ https://www.cbp.gov/newsroom/stats/cbp-enforcement-statistics
    \8\ These include: acetylfentanyl, butyrylfentanyl, B-
hydroxythiofentanyl, a-methylacetylfentanyl, p-fluorobutyrylfentanyl, 
p-fluorofentanyl, pentanoylfentanyl (a.k.a. valerylfentanyl), 2-
furanylfentanyl, p-fluoroisobutyrylfentanyl, n-hexanoylfentanyl, 
carfentanil, benzodioxolefentanyl, acrylfentanyl, 2,2'-
difluorofentanyl, methoxyacetylfentanyl, benzoylfentanyl, 
cyclopropylfentanyl, and hydrocinnamoylfentanyl.
---------------------------------------------------------------------------
    DTOs seek to smuggle illicit narcotics, including methamphetamine 
and opioids, particularly heroin, across our land borders and into the 
United States at and between our POEs,\9\ and Mexican manufacturers and 
traffickers continue to be major suppliers of heroin and 
methamphetamine to the United States. The reach and influence of 
Mexican cartels, notably the Sinaloa, Gulf, and Jalisco New Generation 
Cartels, stretch across and beyond the Southwest border, operating 
through loose business ties with smaller organizations in communities 
across the United States. The threat of these cartels is dynamic; rival 
organizations are constantly vying for control, and as U.S. and Mexican 
anti-drug efforts disrupt criminal networks, new groups arise and form 
new alliances.
---------------------------------------------------------------------------
    \9\ Heroin is also sometimes transported by couriers on commercial 
airlines. Heroin intercepted in the international commercial air travel 
environment is from South America, Southwest Asia, and Southeast Asia.
---------------------------------------------------------------------------
                         at the ports of entry
    Smugglers use a wide variety of tactics and techniques to conceal 
drugs. CBP officers regularly find drugs concealed in body cavities, 
taped to bodies (body carriers), hidden inside vehicle seat cushions, 
gas tanks, dash boards, tires, packaged food, household and hygiene 
products, checked luggage, and construction materials on commercial 
trucks. For example, on March 24, 2018, CBP officers arrested an 
individual at Arizona's San Luis POE after officers discovered more 
than 3.5 lbs. of methamphetamine, worth nearly $11,000, wrapped around 
his torso. CBP officers seized the drugs and turned the arrested 
subject over to U.S. Immigration and Customs Enforcement--Homeland 
Security Investigations (ICE-HSI).\10\
---------------------------------------------------------------------------
    \10\ https://www.cbp.gov/newsroom/local-media-release/san-luis-cbp-
officers-bust-meth-smuggler
---------------------------------------------------------------------------
    Between October 1, 2010 and March 31, 2018, CBP conducted more than 
84 million Non-Intrusive Inspection (NII) examinations, resulting in 
more than 19,000 narcotics seizures and more than $79 million in 
currency seizures. On April 15, 2018, CBP officers at the Brownsville, 
TX POE used NII to inspect a personal vehicle, finding four packages of 
heroin with a total weight of 12 lbs. and one package of 
methamphetamine weighing 1.3 lbs. The combined estimated street value 
of the narcotics from the seizure is approximately $348,000. CBP 
officers seized the narcotics along with the vehicle, arrested the 
driver and turned him over to the custody of ICE- HSI for further 
investigation.\11\
---------------------------------------------------------------------------
    \11\ https://www.cbp.gov/newsroom/local-media-release/brownsville-
port-entry-cbp-officers-seize-over-300k-heroin-and.
---------------------------------------------------------------------------
    The fiscal year 2018 Omnibus provided $224.6 million for NII 
systems and opioid detection equipment. The fiscal year 2019 Budget 
request includes $44.2 million to build upon prior year investments and 
to recapitalize the current small scale and large-scale NII technology 
fleet. This funding will allow CBP to remain on track to ensure the NII 
fleet is operating within its service life by fiscal year 2024, and 
will help CBP continue to use NII to safely, quickly, and effectively 
detect a wide range of contraband imported using a variety of 
conveyances, thereby facilitating lawful trade and travel.
    Constructing and improving CBP's physical infrastructure also 
contributes to the safety of our Nation. CBP supports a vast and 
diverse real property portfolio, including more than 4,300 owned and 
leased buildings, over 28 million square feet of facility space and 
approximately 4,600 acres of land throughout the United States. The 
fiscal year 2018 Omnibus provided $14.8 million to CBP for the critical 
furniture, fixtures, and equipment component of the General Services 
Administration's (GSA) construction projects to modernize several land 
POEs. The fiscal year 2019 President's Budget includes an additional 
$14.8 million to enable modernization of land POEs along the northern 
and southern borders and to complete additional enhancement and 
expansion projects within the OFO portfolio. CBP is investing in 
modernizing our land POEs along the northern and southern borders to 
ensure that CBP's physical infrastructure is operationally viable for 
frontline and mission support functions, including narcotics 
interdiction. Thanks to the funding provided in the fiscal year 2018 
Omnibus, CBP is working with the GSA to ensure that our priority 
requirements at Columbus, San Ysidro and Calexico West ports of entry 
receive facilities enhancements and equipment essential to the unique 
mission of CBP. We look forward to working with GSA and Congress to 
ensure that our physical infrastructure meets CBP's needs in fiscal 
year 2019 and in the future.\12\
---------------------------------------------------------------------------
    \12\ Alexandria Bay, NY, Lewiston Bridge, NY, San Luis I, AZ, Otay 
Mesa, CA, and Blaine, WA have been identified as priority requirements 
in the President's fiscal year 2019 budget.
---------------------------------------------------------------------------
                 international mail and ecc facilities
    While most illicit drug smuggling attempts occur at southwest land 
POEs, the smuggling of illicit narcotics in the international mail and 
ECC environment poses a significant threat. Illicit narcotics can be 
purchased from sellers through online transactions and then shipped via 
the United States Postal Service (USPS) or ECCs. DTOs and individual 
purchasers move drugs such as illicit fentanyl in small quantities, 
making detection and targeting a significant challenge. Follow-on 
investigations, which are conducted by ICE-HSI, are also challenging 
because these shippers are often not the hierarchically structured DTOs 
we encounter in other environments.
    To combat this threat CBP operates within nine major International 
Mail Facilities (IMF) inspecting international mail arriving from more 
than 180 countries, as well as 25 established ECC facilities located 
throughout the United States. CBP officers utilize experience, advanced 
targeting, and a variety of technologies including NII, chemical field 
testing equipment, wet chemical testing, and narcotics detection 
canines to target, detect, and presumptively identify illicit drugs at 
international mail and ECC facilities. For example, on November 23, 
2017, CBP officers in Memphis, TN, seized over six pounds of 
methamphetamine in an ECC shipment manifested as religious articles. 
ICE was notified and a controlled delivery was conducted that resulted 
in the apprehensions of two individuals.
    The majority of illicit fentanyl in the international mail and ECC 
environments is shipped in purities of over 90 percent, whereas the 
majority of fentanyl in the land border environment is seized in 
purities of less than 10 percent. It is important to note that the 
fentanyl seized on the Southern border in lower concentrations is often 
ready for sale to the end-user. The higher purity of fentanyl seized in 
the international mail and ECC environments is often intended to be 
mixed and repackaged by a distributor.\13\
---------------------------------------------------------------------------
    \13\ According to the Drug Enforcement Agency (DEA), 2.2 lbs. (one 
kilogram) of pure fentanyl can make approximately 500,000 pills with a 
retail cost per pill between $10-$20. https://www.DEA.gov/druginfo/
fentanyl-faq.sthtml
---------------------------------------------------------------------------
    In fiscal year 2017, CBP made 118 seizures of illicit fentanyl 
totaling approximately 240 lbs. in the ECC environment and 227 seizures 
totaling approximately 92 lbs. of illicit fentanyl in the international 
mail environment. CBP also made 65 seizures of fentanyl at land POEs 
totaling approximately 853 lbs. In addition to illicit fentanyl, 
purchasers can access open source and dark web marketplaces for the 
tools needed to manufacture synthetic drugs. Fentanyl, powdered 
fentanyl, pill presses, and binding agents can all be purchased online 
and then shipped into the United States. In fiscal year 2014, 24 
seizures of pill presses and tablet machines were made by CBP officers. 
The number increased to 92 in fiscal year 2017, and as of March 2018, 
CBP has seized 64 pill presses in fiscal year 2018.
cbp resources and capabilities to detect, target and interdict illicit 
                               narcotics
    CBP, with the support of Congress, has made significant investments 
and improvements in our drug detection and interdiction technology and 
targeting capabilities. The fiscal year 2018 Omnibus provided an 
increase of $30.5 million in operations and support funding to improve 
opioid detection and laboratory services.
    The need to rapidly reduce the flow of opioids into the United 
States inspired an innovative approach to analyze and find potential 
solutions to the problem through both a CBP prize challenge done in 
conjunction with the DHS Science & Technology Directorate (S&T) and 
participating in the government-wide Illicit Drug Detection Integrated 
Project Team (IPT). This approach will touch on the broader need to 
analyze the full delivery chain, and this initial study will focus on 
operations at the IMFs to identify any non-materiel and/or materiel 
solution approaches to improve field capabilities within 12-18 months.
    CBP is also partnering with S&T to access emerging technologies and 
tools from start-ups and others. These resources, along with enhanced 
information sharing and partnerships, are critical components of CBP's 
ability to identify and deter the entry of dangerous illicit drugs in 
all operational environments. CBP will continue to push for more 
efficient and effective ways to support our personnel and carry out our 
drug interdiction mission.
Advance Information and Targeting
    At CBP's National Targeting Center (NTC), advance data and access 
to law enforcement and intelligence records converge to facilitate the 
targeting of travelers and items of cargo that pose the highest risk to 
our security in all modes of inbound transportation. The NTC takes in 
large amounts of data and uses sophisticated targeting tools and 
subject matter expertise to analyze, assess, and segment risk at every 
stage in the cargo/shipment and travel life cycles. As the focal point 
of that strategy, the NTC leverages classified, law enforcement, 
commercial, and open- source information in unique, proactive ways to 
identify high-risk travelers and shipments at the earliest possible 
point prior to arrival in the United States.
    The fiscal year 2018 Omnibus provided a $58.2 million increase for 
intelligence and targeting capabilities and for expanded staffing at 
the NTC. The fiscal year 2019 Budget proposes an increase of $26.9 
million over the fiscal year 2018 Budget request, or $41.7 million over 
the fiscal year 2018 Omnibus. This increase will expand staffing 
through the hiring of 60 CBP officers 33 Intelligence Research 
Specialists, and 13 support positions, as well as enhance NTC 
analytical modeling capabilities and provide for additional equipment. 
The NTC operates 24 hours a day with the mission of collaborating with 
Federal, state, local, and international partners to effectively 
identify, target, screen, and interdict inbound and outbound passengers 
and cargo across all international modes of transportation that pose a 
threat to national security, public safety, agriculture, lawful trade, 
and safe travel. Effective targeting and interdiction prevents 
inadmissible high-risk passengers, cargo, and agriculture and 
bioterrorism threats from reaching U.S. POEs, extending our border 
security initiatives outward and making our borders not the first line 
of defense, but one of many.
    To bolster its targeting mission, the dedicated men and women of 
the NTC collaborate with critical partners on a daily basis including 
ICE-HSI, the Drug Enforcement Administration (DEA), the Federal Bureau 
of Investigation (FBI), members of the Intelligence Community, and the 
United States Postal Inspection Service (USPIS). Investigative case 
data from our partners is fused with CBP targeting information to 
bolster investigations targeting illicit narcotics smuggling and 
trafficking organizations. Moreover, NTC works in close coordination 
with several pertinent task forces including the Organized Crime Drug 
Enforcement Task Force, the High Intensity Drug Trafficking Areas, and 
the Joint Interagency Task Force-West, as well as the Department of 
Homeland Security's (DHS) Joint Task Forces.
Advanced Electronic Data
    CBP, with the support of Congress, has made significant investments 
in and improvements to our drug detection and interdiction technology 
and targeting capabilities in the international mail and ECC 
environments. CBP receives advance electronic data (AED) on over 40 
percent of all international mail shipments with goods. An increasing 
number of foreign postal operators provide AED to USPS, which is then 
passed on to CBP to target high-risk shipments.
    CBP and USPS now have an operational AED targeting program at five 
of our main IMFs with plans for further expansion. USPS is responsible 
for locating the shipments and delivering them to CBP for examination. 
Thus far in fiscal year 2018, CBP has interdicted 186 shipments of 
fentanyl at the John F. Kennedy International Airport (JFK) IMF, a 
participant in the AED pilot program. One hundred and twenty-five of 
those interdictions can be attributed to AED targeting.
    For example, on January 9, 2018, CBP officers assigned to the JFK 
IMF processed one seizure of benzoyl fentanyl that arrived in an e-
packet mail parcel from China. The parcel was targeted in the Automated 
Targeting System (ATS) using AED. During the examination of the parcel, 
an unknown white powder was discovered. The parcel was referred for 
testing and was positively identified as benzoyl fentanyl. The benzoyl 
fentanyl was seized and, as a result, a joint law enforcement 
controlled delivery was conducted and a suspect was arrested and 
charged.
    CBP supports efforts to expand the ability of USPS to collect a 
customs fee to help offset the cost associated with facility upgrades, 
to develop new scanning technology, and to increase the availability of 
AED for international mail.
Canines
    Canine operations are an invaluable component of CBP's 
counternarcotic operations. The CBP Canine Training Program maintains 
the largest and most diverse law enforcement canine training program in 
the country. At our Nation's POEs and at preclearance locations abroad, 
CBP officers utilize specially trained canines for the interdiction of 
narcotics, firearms, and undeclared currency, as well as in support of 
specialized programs aimed at combating terrorism and countering human 
trafficking. Concealed Human and Narcotic Detection Canines are trained 
to detect concealed humans and the odors of marijuana, cocaine, heroin, 
methamphetamine, hashish, ecstasy, fentanyl and fentanyl analogs.
    The use of canines in the detection of narcotics is a team effort. 
CBP's Laboratories and Scientific Services Directorate (LSSD) produces 
canine training aids and provides analytical support to the CBP Canine 
Training Program, including controlled substance purity determinations, 
pseudo training aid quality analyses, and research on delivery 
mechanisms that maximize safe vapor delivery during training exercises. 
Most recently, OFO's National Canine Program, in coordination with 
LSSD, assessed the feasibility of safely and effectively adding 
fentanyl as a trained odor to deployed narcotic detection canine teams. 
On June 23, 2017, the Office of Training and Development's CBP Canine 
Training Program successfully completed its first Fentanyl Detection 
Pilot Course. This added the odor of fentanyl and fentanyl analogues to 
six OFO canine handler teams in the international mail and ECC 
environments. Beginning October 1, 2018, all new OFO canine handler 
teams graduating from the CBP Canine Training Program will have 
successfully completed a comprehensive CBP Canine Detection Team 
Certification to include the odor of fentanyl and fentanyl analogs. 
Today, all OFO Concealed Human and Narcotic Detection canine teams 
across all of OFO's operational environments have completed fentanyl 
training.
    During fiscal year 2017, OFO canine teams were responsible for 
$26,813,863 in seized property, $1,905,925 in fines, $36,675,546 in 
seized currency, $29,674,839 in Financial Crimes Enforcement Network 
(FINCEN) actions, 197 firearms and 22,356 rounds of ammunition, 79 
concealed humans and 384,251 lbs. of narcotics. In fiscal year 2018 to-
date, OFO canine teams have been responsible for $7,322,522 seized 
property, $411,073 in fines, $7,951,376 in seized currency, $9,178,971 
in FINCEN actions, 150 firearms, 5,418 rounds of ammunition, 105 
concealed humans and 187,409 lbs. of narcotics.\14\
---------------------------------------------------------------------------
    \14\ Effective 4/24/18
---------------------------------------------------------------------------
    For example, on April 27, 2018 a CBP canine alerted officers to 70 
lbs. of methamphetamine at Arizona's San Luis POE within the quarter 
panels of a vehicle. Officers discovered more than 70 lbs. of 
methamphetamine, worth almost $211,000, within the vehicle's quarter 
panels. The vehicle and drugs were seized and the subject was arrested 
and turned over to ICE-HSI.\15\
---------------------------------------------------------------------------
    \15\ https://www.cbp.gov/newsroom/local-media-release/san-luis-cbp-
officers-intercept-meth-shipment
---------------------------------------------------------------------------
Workforce Protection
    CBP's frontline operations, including drug interdiction activities, 
are extremely hands-on. The potential for contact with dangerous 
substances--including illicit synthetic opioids--is a very real health 
and safety risk to law enforcement personnel and canines. Fentanyl is 
approximately 50-100 times more potent than morphine, and when in 
powder form at first glance, it is often mistaken for other drugs which 
appear as white powders, such as cocaine or heroin.
    Explicit instructions, including guidance to canine handlers, have 
been distributed to the field regarding the safe handling of fentanyl. 
In October 2015, CBP completed the first phase of a pilot program to 
train and equip CBP officers with naloxone, a drug for the treatment of 
opioid overdose. CBP officers at seven participating POEs \16\ received 
training on recognizing the signs and symptoms of opioid overdose, 
administering naloxone, and CPR. In February 2016, CBP expanded the 
pilot to an additional eight POEs, deploying 602 intranasal naloxone 
administration kits.\17\ To date, OFO has deployed over 1,100 two-dose 
boxes of naloxone to the field. Additional naloxone is being deployed 
to field offices upon request, as additional personnel are trained in 
its administration. The naloxone program has also expanded to LSSD and 
the USBP. CBP was the first Federal law enforcement agency to implement 
such a program.
---------------------------------------------------------------------------
    \16\ Phase 1 Naloxone Pilot Program POEs include El Paso, Laredo, 
Fort Lauderdale International Airport, John F. Kennedy International 
Airport, San Luis, San Ysidro, and Seattle/Blaine.
    \17\ Phase 2 Naloxone Pilot Program POEs include Miami Int'l/Miami 
Seaport, Boston, Buffalo, Detroit, Newark, Chicago, Houston Int'l/
Houston Seaport, and Dallas.
---------------------------------------------------------------------------
                        growing cbp's workforce
    The people of CBP do the critical, sometimes dangerous work of 
keeping Americans safe. The fiscal year 2018 Omnibus provides $7.7 
million to support the hiring of 328 new CBP officers, in addition to 
the 23 new officer positions requested in the fiscal year 2018 Budget--
a total increase of 351 CBP officers over the fiscal year 2017 level. 
CBP officers are multi-disciplined and perform the full range of 
inspection, intelligence analysis, examination, and law enforcement 
activities relating to the arrival and departure of persons, 
conveyances, and merchandise at air, land, and sea POEs, including the 
interdiction of narcotics at POEs and in the international mail and ECC 
environments.
    CBP has faced challenges in the past to meet our hiring goals. 
However, we have taken decisive action, while recognizing that much 
work remains to be done to ensure we have enough officers and agents to 
meet our needs well into the future. In the last 2 years, more than 40 
individual improvements to CBP's hiring process have resulted in 
significant recruitment and hiring gains-despite record low 
unemployment around the United States and intense competition for 
highly-qualified, mission-inspired people. With support from Congress, 
we are making investments in our capability and capacity to hire across 
all frontline positions. CBP is focusing on efforts to attract 
qualified candidates and expedite their progress through the CBP hiring 
process.
    CBP has embraced the use of social media, and is working to more 
effectively identify the best return on investment in digital media. 
CBP has introduced a mobile app for applicants in our hiring pipeline 
to keep them engaged during the process. CBP is also are going to 
introduce an ``applicant care'' component whereby a dedicated employee 
is assigned to an applicant to help them navigate the process. CBP is 
leveraging private sector expertise and experience in recruiting and 
human resources to provide additional capacity.
    CBP's streamlined frontline hiring process has led to significant 
reductions in the average time-to- hire. In the last 12 months close to 
60 percent of new CBP officers on-boarded in 313 days or fewer, with 
more than 19 percent on-boarding within 192 days. While work remains to 
be done to improve the process, the current overall CBP officer average 
of 293 days to on-board is a significant improvement from the 469-day 
overall baseline established in January 2016. This streamlined process 
has helped us to grow our workforce by reducing the number of qualified 
candidates who drop out due to process fatigue or accepting more timely 
job offers elsewhere.
    CBP's background investigation time is approximately 90 days for a 
Tier 5 level investigation, which is required for all of CBP's law 
enforcement officer applicants and 90 percent of CBP applicants 
overall. This is considerably faster than the government average for 
the same level investigation. CBP is also recognized as having a best 
practice quality assurance program, which other agencies regularly 
visit CBP to learn about.
    In addition, to improve CBP officer staffing at certain locations, 
CBP utilizes group incentives such as recruitment incentives for 
several hard-to-fill locations, including Raymond, Montana; Jackman/
Colburn, Maine; and many locations across Texas, Arizona, North Dakota, 
and southern California.
    As a result of these and other improvements, CBP's fiscal year 2017 
hiring totals surpassed fiscal year 2016 totals, including increases of 
21 percent for CBP officers. The total number of CBP officer applicants 
increased by 89 percent between fiscal year 2015 and fiscal year 2017, 
including a 45 percent increase from fiscal year 2016 to fiscal year 
2017.
            information sharing and operational coordination
    Substantive and timely horizontal and vertical information sharing 
is critical to targeting and interdicting illicit drugs. CBP works 
extensively with our Federal, state, local, tribal, and international 
partners and provides critical capabilities toward the whole-of-
government approach to address drug trafficking and other transnational 
threats at POEs, in our IMFs and ECCs, and along the southwest border, 
northern border, and coastal approaches. Our targeting, detection and 
interdiction efforts are enhanced through special joint operations and 
task forces conducted under the auspices of multi-agency enforcement 
teams. These teams are composed of representatives from international 
and Federal law enforcement agencies who work together with state, 
local, and tribal agencies to target drug and transnational criminal 
activity, including investigations involving national security and 
organized crime.
    CBP hosts monthly briefings/teleconferences with Federal, state, 
and local partners regarding the current state of the border--the 
northern border and southwest border--to monitor emerging trends and 
threats and provide a cross-component, multi-agency venue for 
discussing trends and threats. The monthly briefings focus on drugs, 
weapons, and currency interdictions and alien apprehensions both at and 
between the POEs. These briefings/teleconferences currently include 
participants from: the Government of Canada, the Government of Mexico, 
DHS, ICE, U.S. Coast Guard (USCG), DEA, FBI, U.S. Northern Command; 
Joint Interagency Task Force-South, Bureau of Alcohol, Tobacco, 
Firearms, and Explosives, U.S. Attorneys' Offices, Naval Investigative 
Command, State and Major Urban Area Fusion Centers, and other 
international, Federal, state, and local law enforcement as 
appropriate.
    Under DHS' Unity of Effort initiative and with the establishment of 
three new DHS Joint Task Forces (JTF) CBP is enhancing our 
collaboration with other DHS components to leverage the unique 
resources, authorities, and capabilities of each agency to more 
effectively and efficiently execute our border security missions 
against DTOs and other threats and challenges. JTF operations also 
increase information sharing with Federal, state and local law 
enforcement agencies, improve border-wide criminal intelligence-led 
interdiction operations, and address transnational threats.
    Collaboration with our partners yields results. For example, the 
Chicago Field Office Tactical Analytical Unit initiated ``Operation Mad 
Dog'' in February 2017 to target international mail shipments suspected 
of containing illicit fentanyl and refer those shipments to our law 
enforcement partners across the country- including ICE-HSI and state, 
local, and tribal partners- for action. Targeted suspect shipments were 
intercepted and examined in IMFs based on information provided by our 
law enforcement partners and the NTC, as well as open-source 
information. Controlled deliveries have resulted in 37 arrests. 
Successes attributed to this Operation to-date also include the seizure 
of over 57 lbs. of fentanyl, firearms, cash and crypto- currency, and 
the disruption of a major domestic dark web distributor of illicit 
fentanyl.
    CBP is a key partner in the implementation of the Office of 
National Drug Control Policy's (ONDCP) Heroin Availability Reduction 
Plan (HARP). CBP also utilizes the Department of Justice's Nationwide 
Deconfliction System operated by the DEA, conducting interagency 
deconfliction and coordination, and is working with the Heroin and 
Fentanyl Working Group at the DEA Special Operations Division, 
alongside ICE-HSI.
    The fiscal year 2019 President's Budget recognizes the serious and 
evolving threats and dangers our Nation faces each day. With continued 
support from Congress, CBP, in coordination with our partners, will 
continue to refine and further enhance the effectiveness of our 
detection and interdiction capabilities to combat transnational threats 
and the entry of opioids, methamphetamine, and other illicit drugs into 
the United States.
    Chairwoman Capito, Ranking Member Tester, and distinguished Members 
of the Subcommittee, thank you for the opportunity to testify today. I 
look forward to your questions.

    Senator Capito. Mr. Benner.
STATEMENT OF MR. DEREK BENNER, ACTING EXECUTIVE 
            ASSOCIATE DIRECTOR, HOMELAND SECURITY 
            INVESTIGATIONS, IMMIGRATION AND CUSTOMS 
            ENFORCEMENT
    Mr. Benner. Chairman Capito, Ranking Member Tester, and 
soon to arrive distinguished members of the subcommittee, thank 
you for the opportunity to appear before you today.
    In the early morning hours on January 3, 2015, in a North 
Dakota suburb, the parents of an 18-year-old child heard a 
knock at their door. It was the police, and they were there to 
tell them that their son had taken a lethal dose of fentanyl 
and did not survive that encounter. The hopes and dreams for a 
life barely begun were gone in an instant. Sadly, tragedies 
like this are becoming all too common, affecting Americans both 
young and old, on city streets and in the heartland of America.
    Dangerous narcotics, like opioids, certainly do not 
discriminate, nor do the criminals who seek to profit from 
these illegal enterprises. It's important to remember that for 
every user of illegal narcotics, there's a seller somewhere 
attempting to profit from this heartbreaking national epidemic.
    Today, you don't have to have a connection to a cartel to 
make a lot of money selling drugs, you simply need a connection 
to the Internet.
    ICE Homeland Security Investigations, or HSI, is the 
principal investigative agency within Department of Homeland 
Security (DHS), over 9,000 strong. Our broad mission to protect 
the homeland allows us to be uniquely positioned to investigate 
crimes impacting public safety. That, in combination with our 
unique border authority, allows us to simultaneously target 
transnational criminal organizations at the border, beyond the 
border, and in the interior of the United States.
    Law-abiding citizens approach our everyday lives with 
cyber-enabled conveniences, and we are here to say today that 
so do the criminals. Therefore, we are also defending our 
virtual borders. The fight does not and should not begin at the 
border, and our approach addresses that threat with our 
international and domestic operations working together, doing 
more work overseas before the problem reaches our border. For 
example, HSI's Transnational Criminal Investigative Units work 
hand-in-hand with our special agents assigned to international 
posts. These units include foreign law enforcement officials 
and prosecutors who undergo strict vetting and receive formal 
training here at the Federal Law Enforcement Training Center.
    Here at home, the Border Enforcement Security Taskforces, 
or BESTs, are HSI's primary platform to investigate smuggling 
organizations. We currently operate BESTs in 62 strategic 
locations, such as at our land border ports of entry, airports, 
seaports, international mail facilities, and throughout the 
interior of the United States. With more than 1,000 law 
enforcement agents and officers from more than 100 agencies, 
these units collect intelligence-driven investigations aimed at 
identifying and dismantling transnational criminal 
organizations wherever they operate. It also serves as a robust 
information-sharing platform among law enforcement agencies.
    To provide some perspective about how rapidly the fentanyl 
crisis has unfolded, in fiscal year 2015, HSI seized 
approximately 69 pounds of fentanyl. Fast-forward 2 years, and 
our agents seized more than 2,400 pounds. Although it's 
primarily produced in China, it is being smuggled into the 
United States from Mexico in now record amounts.
    HSI's strategy to address opioid smuggling targets every 
level of the supply chain, including the point of foreign 
manufacturer, the dark net and illicit marketplaces, as well as 
the payment mechanisms used by buyers and sellers. Working with 
our State and local partners, we work to link overdoses to 
smuggling networks wherever we can.
    Our expertise in the financial and cyber realm strengthens 
these investigations. The HSI's Cyber Crimes Center provides 
critical support and assistance as the trade of illicit opioids 
continues migrating to the online world.
    HSI initiated a dark net and virtual currencies training 
program for Federal, State, and local law enforcement agencies. 
Since October of 2017, HSI has trained over 2,100 law 
enforcement officers throughout the United States, with a 
specific focus on cities that are being impacted the most by 
opioids.
    Of course, these efforts would not be possible without 
continued support from our partners in Congress. The fiscal 
year 2018 omnibus included funding for 60 new domestic special 
agent positions, five international positions, and 10 positions 
for the Human Exploitation Rescue Operative program, and we are 
very grateful for these resources.
    Seventeen of these new special agent positions will deploy 
to the front lines to combat opioid trafficking, to include 12 
in Ohio and Pennsylvania. We will also add one special agent 
and one analyst to our office in China.
    Without the proper resources dedicated to these 
investigations, the ramifications of this illegal activity will 
certainly continue. HSI welcomes the additional resources 
requested in the President's fiscal year 2019 budget request, 
to include 300 special agents and 212 associated mission 
support personnel, 165 of the special agents will be assigned 
to combat the opioid epidemic and the accompanying financial 
and cyber aspects of these crimes.
    In terms of mission support personnel, HSI will continue to 
increase analytical support by augmenting its intelligence 
footprint. To stay ahead of our adversaries in this 
cybercentric time, we will seek to hire cyber investigators and 
data scientists, who will work side by side with our agents, 
developing innovative cyber technology to identify individuals 
and organizations responsible for engaging in transnational 
crime.
    The tragic overdose case I spoke about earlier resulted in 
the dismantlement of the organization to include the 
indictments of four individuals in China who were the source of 
supply of that lethal dose of fentanyl. The success of this 
investigation is directly attributed to the close collaboration 
between HSI, the DEA, the United States Attorney's Office for 
the Northern District of North Dakota, and the Grand Forks 
Narcotics Task Force, as well as several other State, Federal, 
and local law enforcement partners.
    I thank you for the opportunity to appear before you today 
and your continued support for Homeland Security 
Investigation's mission. And I look forward to answering any 
questions.
    [The statement follows:]

                 Prepared Statement of Mr. Derek Benner
the role of dhs in stopping the flow of opioids & other dangerous drugs
    Thank you for the opportunity to appear before you today to discuss 
U.S. Immigration and Customs Enforcement (ICE), Homeland Security 
Investigations (HSI) activities to combat drug flows, and the efforts 
of HSI to target, investigate, disrupt, dismantle and bring to justice 
the criminal elements responsible for the manufacturing, smuggling, and 
distribution of dangerous and illicit drugs.
    As the largest investigative agency within the U.S. Department of 
Homeland Security (DHS), HSI investigates and enforces more than 400 
Federal criminal statutes to include the Immigration and Nationality 
Act (Title 8), U.S. customs laws (Title 19), general Federal crimes 
(Title 18), and the Controlled Substances Act (Title 21). HSI special 
agents use this authority to investigate all types of cross-border 
criminal activity and work in close coordination with U.S. Customs and 
Border Protection (CBP), the Drug Enforcement Administration (DEA), as 
well as other Federal, state, and local law enforcement agencies in a 
unified effort, to target Transnational Criminal Organizations (TCOs) 
that are supplying narcotics to the United States.
    Today, I would like to highlight our efforts to combat 
international drug trafficking coming into the United States.
              smuggling trends along the southwest border
    As many of the members of this Subcommittee know firsthand, the 
Southwest border is a very diverse environment. Along the nearly 2,000 
miles of border, there is a maritime boundary along the Gulf of Mexico 
and the Pacific Ocean that transitions to vast land border areas that 
include rivers, rural agricultural lands and densely populated urban 
areas. In response to these vastly different areas, the cartels adapt 
their smuggling methods and cargo to the environment. In recognition of 
the significant threat that smuggling along the Southwest border 
presents to our homeland, 25 percent of HSI's special agents are 
assigned to our offices along the Southwest border.
    Mexico is a major source and transit country for illicit drugs 
destined for the U.S., to include marijuana, cocaine, methamphetamine, 
heroin and, more recently, fentanyl. Intelligence, gathered in part 
through successful investigations, confirm that Mexico is not only a 
source country for the production of fentanyl, it is also a transit 
country for fentanyl originating from Asia. Mexican distribution 
networks are responsible for fentanyl transiting from Mexico into 
interior states such as Ohio, which has witnessed a significant 
increase in overdose deaths. One National Center for Health Statistics 
report shows a 41 percent increase in overdose deaths in Ohio in just 1 
year (2016-17). Trends indicate that the potency of fentanyl is what 
has caused this significant increase in overdose deaths.
    Because of Mexico's dominant role as either a source or transit 
point for illicit drugs destined for the U.S., it has also become a 
primary destination for the illicit proceeds that the cartels earn from 
the distribution networks in the U.S. Mexican cartels use a variety of 
techniques to
    repatriate illicit proceeds, from bulk cash smuggling to 
sophisticated trade-based money laundering schemes. Many of the more 
complex techniques rely on third party money launderers and corrupt 
financial institutions.
    To give you a sense of the variety of smuggling challenges that we 
collectively face, it is important to start by talking about the 
specific drug threats, smuggling methods and modes used across the 
spectrum of the Southwest border.
Heroin
    Mexico has become the largest source of heroin consumed in the 
United States, and the 2016 National Drug Threat Assessment found that 
Mexican cartels produced 70 metric tons of heroin annually. The purity 
of Mexican-produced heroin has also increased over time, making it more 
marketable because it can be smoked or snorted as well as injected 
intravenously. HSI offices in Ohio have witnessed an increase of 
heroin/fentanyl-related overdoses since approximately 2015.
Fentanyl
    The Mexican cartels have quickly added fentanyl to their smuggled 
drugs in response to the explosion of opiate abuse in the United 
States. We have seen Mexico as both a producer and transit point for 
fentanyl destined for U.S. markets. In some cases, fentanyl is seized 
in mixed contraband loads with heroin or methamphetamine, reinforcing 
the poly-drug nature of the cartels. While U.S. law enforcement 
continues to assess how much of the fentanyl market in the United 
States is supported by Mexican-sourced fentanyl, the size of individual 
seizures and the proximity of Mexico to the U.S. drug market is a 
troubling sign.
Methamphetamine
    The majority of methamphetamine consumed in the United States is 
now produced in Mexico using precursor chemicals from Asia. 
Methamphetamine is almost exclusively seized in non- factory 
compartments of POVs. The second most common method of smuggling 
methamphetamine is by pedestrians who secret it on their bodies or 
within body cavities. Methamphetamine is seized in both crystalline and 
liquid forms.
Cocaine
    Mexico is a transit country for South American-sourced cocaine. 
Cocaine is almost exclusively seized at ports of entry (POEs) in non-
factory compartments of privately owned vehicles (POVs). Alternatively, 
the cocaine may be deeply concealed within commercial conveyances and 
cargo shipments.
Marijuana
    The Mexican cartels cultivate marijuana and Mexico is the largest 
foreign supplier of illegal marijuana to the U.S. drug market. DHS 
agencies seize the largest quantities of marijuana as it is being 
smuggled between the POEs, including through tunnels. When marijuana is 
seized at U.S. POEs it is most often found concealed among commercial 
cargo shipments.
Southwest Border Smuggling Methods and Related Challenges
    Recognizing that the border in Southern California is different 
than the border in Arizona, New Mexico, and Texas, the cartels adapt 
their smuggling methods to suit a specific area. The unifying goal of 
all smugglers is to try to blend into normal traffic in a given area to 
avoid law enforcement attention. On a daily basis, the cartels conduct 
surveillance of law enforcement operations along the border, 
principally focusing on CBP operations at and between the POEs. As the 
Department changes its tactics and techniques, or introduces new 
technology and infrastructure, the cartels adapt their operations and 
probe our border security to determine the best way to accomplish their 
goals.
Land Ports of Entry
    At POEs along the Southwest land border, smugglers use a wide 
variety of tactics and techniques for concealing drugs. Our special 
agents work every day with CBP officers from the Office of Field 
Operations to identify, seize, and investigate drug smuggling 
organizations that attempt to exploit POEs to introduce drugs into the 
United States. Within the POE environment there are three distinct 
threat areas exploited by the cartels: Pedestrians, POVs, and 
Commercial Cargo.
    Pedestrians are primarily used to smuggle cocaine, heroin, and 
methamphetamine on or within their bodies. POVs are used to smuggle 
cocaine, heroin, fentanyl, methamphetamine, and marijuana; often using 
deep concealment methods like non-factory compartments, gas tanks and 
other voids. At Commercial POEs, the cartels utilize commercial tractor 
trailers to commingle narcotics with legitimate commercial goods, or to 
conceal the narcotics within the tractor trailers themselves.
    The cartels also use spotters/scouts and counter-surveillance 
techniques both at and between the POEs to increase their chances of 
success in smuggling ventures. Spotters/scouts watch and report on 
border law enforcement activities.
Between the Ports of Entry
    The cartels use the areas between the POEs primarily to smuggle 
marijuana in bulk. In these areas, the cartels use a variety of 
techniques that are tailored to the terrain and other environmental 
factors. For example, in Texas, the Rio Grande River creates a natural 
barrier that poses unique challenges for the U.S. Border Patrol.
    Outside of urban areas along the land border, one tactic used by 
the cartels is vehicle incursions, or ``drive-throughs,'' whereby 
smugglers breach the border by either going over or through border 
fences. Smugglers move vehicles over the fence using ramps or, on more 
rare occasions, lift vehicles over the fence using cranes. Going 
through the fence involves cutting fence panels and lifting them up, or 
creating a gate in the fence allowing a vehicle to pass through. 
Vehicle incursions often rely on networks of scouts that are staged on 
the area's highest points to warn them of U.S. Border Patrol or other 
law enforcement presence.
    In areas where the cartels cannot conduct vehicle incursions, they 
have experimented with ways to throw or launch marijuana bundles over 
the fence to co-conspirators waiting in the United States. Recently, we 
have seen cartel attempts to use air or propane cannons to launch 
bundles of marijuana weighing more than a hundred pounds over the 
border fence.
    Another tactic cartels use in remote areas between the POEs is to 
have backpackers carry bundles of marijuana on their backs using 
improvised backpacks made of burlap or other materials. Backpackers 
often travel in groups and have been known to travel for days before 
getting to pre-designated locations, where they are picked up by other 
members of the organization in the United States.
    Smuggling by general aviation aircraft from Mexico has not been a 
significant threat since the late 1990's. However, in the last decade 
we have seen the cartels experiment with the use of ultralight aircraft 
to smuggle marijuana in Arizona and Eastern California. More recently 
we have also seen the cartels experiment with the use of small 
recreational drones to smuggle very small quantities of drugs, often 
just a couple of pounds.
    In 1990, the first cross-border tunnel was discovered in Douglas, 
Arizona. Since that time more than 194 tunnels (both completed and in 
progress) have been located along the Southwest border, primarily in 
Arizona and Southern California. The discovery of illicit subterranean 
tunnels is evidence that smugglers are moving away from traditional 
smuggling techniques due to enhanced law enforcement efforts. In 
recognition of the significant smuggling threat present in Arizona and 
San Diego, HSI leads two Tunnel Task Forces in San Diego and Nogales 
under the auspices of the Border Enforcement Security Task Force (BEST) 
Program, described in more detail below.
                      other smuggling environments
Maritime Smuggling
    As infrastructure, technology, and staffing have been added to the 
Southwest border, we have seen an increase in maritime smuggling of 
marijuana and other drugs from Mexico to California coastal areas north 
of San Diego. The cartels use pleasure boats or small commercial 
fishing vessels known as ``Pangas'' that can achieve relatively high 
speeds under the cover of darkness to attempt to evade detection by CBP 
and U.S. Coast Guard (USCG) surface patrol vessels and patrol aircraft. 
Additionally, significant maritime smuggling activity occurs daily 
throughout the Caribbean, with watercraft coming from Columbia and 
Central America. GPS technology is being used by smugglers who are now 
able to drop drug loads overboard and have others retrieve the load 
days later, in a different location, by following the GPS tracker 
placed in the load.
International Airport Smuggling
    HSI has recognized the continued threat of illicit exploitation 
that the international airports pose for law enforcement. International 
airports serve as a hub for illicit money movement, including the 
smuggling of bulk cash, preloaded cash cards, and e-commerce, as well 
as contraband smuggling.
International Mail Facilities
    TCOs have long realized the vulnerability of the mail and express 
consignment systems, and exploit the great volumes of mail entering the 
United States as a means to further their criminal activity. Moreover, 
purchasers of contraband can access open source and dark web 
marketplaces for synthetic drugs where they can easily be purchased 
online, and then shipped into the United States, sometimes directly to 
the end user. As stated above, much of the fentanyl that is smuggled 
into the United States is mixed with other narcotics and shipped from 
Mexico.
    Fentanyl is also being smuggled into the United States from China 
through our international mail facilities and express consignment hubs.
                         hsi's lines of effort
    TCOs (to include drug trafficking organizations) in some respects, 
operate like any large for- profit business. They try to stay ahead of 
their competitors, they remain nimble in an ever- changing environment 
and they are always looking for ways to move their product in a more 
efficient and expedited manner with minimal loss. However, TCOs, unlike 
legitimate large businesses, are not constrained by laws or borders. 
They diversify their techniques, and consistently search for innovative 
ways to remain undetected by law enforcement to exploit the trade, 
travel, and financial systems of the United States.
    The fight does not and should not begin at the border. HSI's 
approach is to push our borders out and address the threat in sync with 
our international and domestic footprints. This allows us to do more 
work overseas before the problem reaches our border by dismantling 
illicit pathways, and by investigating and seeking prosecution of 
foreign organizational members in their homeland, when practical.
    On the international front, HSI leverages its Transnational 
Criminal Investigative Units (TCIUs) who work hand in hand with our 
special agents assigned to international posts. HSI TCIUs are comprised 
of foreign law enforcement officials and prosecutors who undergo strict 
vetting, and receive formal law enforcement training at the Federal Law 
Enforcement Training Center (FLETC) in Glynco, Georgia. Currently, HSI 
has 12 TCIUs operating throughout the Western Hemisphere, Europe, 
Africa, and Southeast Asia.
    Border Enforcement Security Taskforces (BEST) are HSI's primary 
platform to investigate smuggling domestically. HSI currently operates 
BESTs in 62 locations throughout the United States, leveraging the 
participation of more than 1,000 Federal, state, local, and foreign law 
enforcement agents and officers, who representing over 100 law 
enforcement agencies jointly conducting complex criminal 
investigations. These 62 BESTs are strategically situated at POEs, 
international airports, seaports and embedded at international mail 
facilities which allows for collaboration in conducting intelligence-
driven investigations aimed at identifying, disrupting, and dismantling 
TCOs that operate in the air, land, and sea environments.
    By incorporating a National Case Model concept and having our 
domestic and international offices working seamlessly together, with 
our respective Federal, state, local, and international law enforcement 
partners, we can facilitate real time information exchange, operational 
activities, and rapid bilateral investigations to dismantle these 
organizations. The National Case Model is an innovative approach to 
dismantling and preventing the reconstitution of the top criminal 
networks impacting the national security of the homeland. It is 
essential because, as stated above, these criminal networks are not 
limited by international boundaries, prosecutorial jurisdictions, 
agency missions, and unit operations areas; and, as a result, the 
criminal networks are linked to dozens of U.S. and foreign partner 
investigations, cases, operations, prosecutions, seizures, and 
apprehensions. Countering these complex transnational criminal networks 
requires a centralized management framework that unifies the efforts 
and objectives of investigative, law enforcement, criminal justice and 
other government agencies. It also requires disciplined case management 
procedures, consolidated funding and accounting, and cross-functional, 
cross- programmatic and cross-domain support. Furthermore, it must 
transcend localized mindsets, discourage tunnel vision, and recognize 
that dismantling the entire criminal network is a higher public 
interest than arresting and prosecuting locally targeted individuals.
    In October of 2017, President Trump signed an order declaring the 
opioid crisis a national public health emergency. Due to its variable 
changing potency, fentanyl and its analogs have been attributed to most 
of the overdose related deaths in the U.S. Fentanyl is being smuggled 
into the
    U.S. by air, land, and sea. To highlight the rapid popularity of 
this drug, in fiscal year 2015, HSI seized approximately 69 lbs. of 
fentanyl. Fast forward 2 years, in fiscal year 2017, HSI seized over 
2,400 lbs. of fentanyl. Although it's primarily produced in China, we 
are seeing it being smuggled into the U.S. from Mexico in record 
numbers. As previously stated, the fentanyl coming from Mexico is 
typically combined with other narcotics. Mexico is not the only threat 
though, as it is also coming direct from China in its pure form. The 
primary concerns with pure fentanyl is the fact that it has varying 
potency, and exposure to a miniscule amount can result in death. There 
are several cities throughout the country that are seeing this drug in 
both forms and people are dying as a result.
    In response to the opioid national emergency, BESTs embedded at 
international mail and express consignment carrier facilities 
specifically target opioid shipments on a daily basis, attempting 
controlled deliveries of intercepted packages that contain fentanyl or 
other illicit substances.
    Controlled deliveries are highly effective means of identifying 
end-users, establishing probable cause, and ultimately disrupting and 
dismantling domestic and regional smugglers and distributors. As a 
result, HSI has achieved a number of successes through joint efforts at 
the local, national and international level.
    Just over 2 years ago, medics responded to a 911 call in Grand 
Forks, North Dakota for an all too common opioid overdose death. HSI 
responded to the call for help from our local police partners in 
aggressively investigating the source of the fentanyl, which was 
eventually determined to cause not only this death, but numerous 
others. Utilizing our extensive resources and international reach, HSI, 
along with its law enforcement partners, began a complex and aggressive 
investigation resulting in identifying the movement of fentanyl through 
distributors, pill pressers and smugglers and identifying the original 
source in China. Federal indictments, arrests, and seizures have 
followed, with extensive coordination through HSI International offices 
and foreign partners in Panama, Colombia, Canada, and China. Members of 
this fentanyl smuggling organization span across the U.S. and the 
world.
    Recently, an investigation into fentanyl smuggling from China was 
conducted by HSI offices in Guangzhou, China and New Orleans, 
Louisiana. HSI worked closely with the Chinese Narcotics Control Bureau 
(NCB) targeting the ``Diana'' Fentanyl TCO. The information shared by 
HSI prompted Chinese authorities to conduct enforcement actions across 
multiple Chinese provinces and influenced needed changes in Chinese 
laws governing narcotics enforcement. At a press conference in Beijing 
in December 2017, the Chinese Narcotics Control Commission announced 
changes to the narcotics control list. During his speech, NCB Deputy 
Director General Deng Ming referenced the joint HSI/NCB investigation 
of the Diana Fentanyl TCO as a contributor to this law change. 
Additionally, U.S. Department of Justice legal representatives in 
Beijing report that the Chinese Narcotics Control Commission considers 
this a ``signature case'' that significantly helped escalate the 
Chinese Government's understanding of the fentanyl export problem.
    HSI agents and our BEST teams work tirelessly to disrupt the 
movement of opioids and fentanyl into the U.S. from our Southern 
border. We develop information and gather intelligence, leading to 
operational action related to the smuggling activities of cartels and 
other TCOs. Within the last few months, one HSI enforcement action 
resulted in the seizure of 34 lbs. of a substance containing fentanyl, 
smuggled from Mexico, at a southern Arizona home. The case is ongoing.
    Another ongoing 2018 HSI case, based in California and Ohio, has 
resulted in arrests, seizures and significant information regarding a 
large fentanyl production lab in Mexico.
    HSI leverages its expertise in the financial and cyber realm to 
propel our investigations. HSI's Cyber Division provides significant 
and essential support and assistance to field cyber investigations 
targeting darknet illicit marketplaces, where fentanyl and chemical 
precursors proliferate. As criminal activity, and especially the trade 
of illicit opioids, continues to migrate to the online world, HSI faces 
growing demand for cyber investigative assistance. For example, in 
2014, HSI conducted only 37 cybercrime investigations (not including 
child exploitation violations). By 2015, that number approached 100 
such investigations. Today, HSI has over 600 open cybercrime 
investigations, including over 100 specifically targeting dark net 
illicit markets--most of which involve narcotics smuggling. In the last 
year alone, the Cyber Division has observed a 500 percent increase in 
requests for field support. Recognizing the need to proactively target 
online fentanyl trafficking, the HSI Cyber Division is identifying 
ongoing investigations and facilitating the coordination of online 
undercover operations conducted in furtherance of dark-net illicit 
marketplaces. Additionally, the Cyber Division is aiding with the 
development and management of online undercover personas in furtherance 
of online undercover operations and collaborates with joint agency 
strategies in taking down online sources of opioids.
    In addition to significant opioid related investigations, HSI 
initiated a dark-net and virtual currencies training program for 
Federal, state and local law enforcement agencies. The objective behind 
this training is to share HSI's cutting edge technology and experience 
to train other law enforcement personnel and thus making them a 
significant force multiplier to combat this national crisis. Since 
October 2017, HSI has provided this training to over 1,500 Federal, 
state, and local law enforcement officers throughout the United States 
with a focus on cities that are being impacted the most by opioids.
    Identifying, analyzing, and investigating the payment systems that 
facilitate the purchase and smuggling is critical to the disruption and 
dismantlement of networks that smuggle contraband like cocaine and 
opioids to the U.S. HSI conducts proactive investigations that focus on 
the two key payment systems which support illicit procurement of 
narcotics: money service businesses (MSBs) and digital currencies. 
Generally, drugs purchased on the ``indexed'' Internet are paid for 
through licensed mainstream MSBs. On dark-net marketplaces and other 
``unindexed'' websites, purchases are often paid with digital 
currencies such as Bitcoin or Monero, among many others. In support of 
its diverse financial investigative efforts, HSI uses undercover 
techniques to infiltrate and exploit peer-to-peer cryptocurrency 
exchangers who typically launder proceeds for criminal networks engaged 
in or supporting dark net marketplaces. Furthermore, HSI leverages 
complex blockchain exploitation tools to analyze the digital currency 
transactions and identify transactors.
    To continue long term strategies to dismantle TCOs, HSI trains 
investigators from national and international agencies in 
cryptocurrency investigations to deter organizations from laundering 
proceeds or using cryptocurrencies to fund the purchase of narcotics. 
Also, HSI created the Money Service Business Initiative to enable the 
application of advanced data analytics across large amounts of MSB data 
to isolate criminal networks, highlight suspicious transactions 
indicative of illicit activity, and provide predictive intelligence. 
The power of this type of advanced analytics truly shines when MSB data 
integrated with additional government data holdings, open source and 
social media information, and communication records such as phone toll 
records, IP activity records, email search warrants, and Title III wire 
intercepts.
    HSI participates at CBP's National Targeting Center (NTC) through 
the NTC-Investigations (NTC-I) program, which leverages intelligence 
gathered during HSI investigations and exploits it using CBP holdings 
to target the flow of drugs into the United States. The NTC-I works to 
share information between CBP and HSI entities world-wide.
    HSI has assigned special agents to work within the NTC Cargo (NTC-
C) Narcotics Division. These special agents are charged with serving as 
liaisons between the NTC and HSI personnel in both domestic and 
international posts. HSI investigative case data is fused with CBP 
targeting information to bolster investigations targeting smuggling & 
trafficking organizations.
    NTC-I conducts post seizure analysis based on HSI seizures in the 
field and CBP seizures at the ports of entry. The analysis is critical 
to identifying networks that transport drugs like heroin and illicit 
fentanyl-related substances into and throughout the United States. A 
key component of the post seizure analysis is the financial 
investigation. The NTC-I focuses on the financial element of the 
smuggling organization by exploiting information gathered from multiple 
financial databases.
                  strategic placement of hsi personnel
    The fiscal year 2018 DHS Appropriations Act funded 60 new domestic 
special agent positions and 5 international positions for HSI. In 
preparation for potential additional investigative resources, HSI 
developed a Resource Prioritization module as part of the larger 
Workload Staffing Model (WSM). This WSM module allows HSI leadership to 
use standardized output and efficiency metrics derived from aggregated 
Investigative Case Management data to inform resource deployment 
determinations with the intention of maximizing enforcement activities 
in HSI strategic priority mission areas. The HSI priority mission areas 
for placement of these new positions include gang enforcement, 
fentanyl/opioid enforcement and trade-fraud enforcement. Using data 
from the WSM, HSI will deploy 17 of the 60 new positions to the front 
lines to combat opioid trafficking. The results of the WSM indicate 
that these positions would have the most impact in the ``Rust Belt'' 
and the northeastern part of the United States, which happen to be the 
areas hardest hit by the opioid epidemic. With the potential addition 
of 300 domestic special agent positions requested in the fiscal year 
2019 President's Budget request, HSI leadership is preparing to use the 
same data driven methods to make resource deployment determinations for 
up to 68 field agents for fentanyl/opioid enforcement activities. In 
addition, HSI would like to increase our international footprint to 
conduct even more collaborative investigative work down range and 
eliminate these organizations before their product reaches our borders.
    HSI recognizes that we must be more sophisticated in obtaining the 
right technology and personnel to combat these ever evolving TCOs. The 
fiscal year 2019 President's Budget also calls for the hiring of 212 
mission support personnel for HSI. The role of mission support in law 
enforcement has changed. If approved, HSI will continue to increase 
analytical support by augmenting its intelligent footprint. To further 
promote innovation and stay ahead of our adversaries in this cyber 
centric time, HSI will also seek to hire cyber investigators and data 
scientists.
                        successful collaboration
    There is no single entity or single solution that can stop the flow 
of dangerous illicit drugs into the United States or keep them from 
harming the American public. Tackling this complex threat involves a 
united, comprehensive strategy and an aggressive approach by multiple 
entities across all levels of government. HSI will continue to work 
with our Federal, state, local and international partners to improve 
the efficiency of information sharing and operational coordination to 
address the challenges and threats posed by illicit narcotic smuggling 
in every environment.
    Thank you again for the opportunity to appear before you today and 
for your continued support of HSI and its law enforcement mission. HSI 
is committed to stemming cross-border criminal organizations through 
the various efforts I have discussed today. I appreciate your interest 
in these important issues.
    I would be pleased to answer any questions you may have.

    Senator Capito. Thank you.
    Mr. Hentz.
STATEMENT OF MR. ANDRE L. HENTZ, ACTING DEPUTY UNDER 
            SECRETARY FOR SCIENCE AND TECHNOLOGY, 
            SCIENCE AND TECHNOLOGY INVESTIGATIONS
    Mr. Hentz. Chairman Capito, Ranking Member Tester, and 
distinguished members of the subcommittee, thank you for 
inviting the Department of Homeland Security's Science and 
Technology Directorate to participate in today's hearing. I 
appreciate the opportunity to discuss Science and Technology 
(S&T's) work in response to the opioid crisis and our support 
to the Department's frontline operators to combating illegal 
drug smuggling overall.
    I've been the Acting Deputy Under Secretary for the last 
year and a half and have been with S&T since 2014. I thank the 
subcommittee for its support in the fiscal year 2018 
appropriation and the funding provided to allow S&T to support 
the DHS response to the opioid crisis.
    The physical nature of synthetic opioids, which have no 
distinguishable features that allow easy detection in obscure 
bulk samples, and which can be shipped in small quantities, 
presents an immense challenge. S&T has established a program in 
collaboration with the U.S. Customs and Border Protection on a 
phased approach to deliver improved field capabilities within 
12 to 18 months, first centered on operations and international 
mail and express consignment facilities. Recognizing challenges 
unique to the mail process, this program focuses on a layered 
set of solutions, which includes both detection hardware and 
advanced analytics to create efficiencies and provide 
flexibility in deployment to existing operational 
infrastructure.
    S&T is working closely with CBP to analyze current 
capabilities and develop operational requirements to support 
the Office of Field Operations' mission. These requirements 
will directly inform rapid research and development efforts to 
help fulfill the most urgent needs for opioid detection at mail 
and consignment facilities with solutions versatile enough to 
be capable of detecting other illegal substances.
    S&T has initiated several collaborative efforts in fiscal 
year 2018 to capitalize on available resources and provide 
impactful results.
    First, S&T is partnering with CBP with support from the 
Office of National Drug Control Policy on a $1 million prize 
competition to begin within 4 to 6 months that challenges 
American innovators to develop novel, high-throughput screening 
capabilities. S&T is also scouting technologies that could be 
readily modified and represent near-term deployment 
opportunities. Further, through the Transportation Security 
Laboratory, we will evaluate the performance of equipment 
currently used by the Transportation Security Administration 
for explosives detection against the synthetic opioid threat.
    In parallel, S&T is investigating advanced container 
scanning systems with 3-dimensional views for non-intrusive 
detection of opioids and other drugs.
    Supporting each of these efforts is S&T's Chemical Security 
Analysis Center, which provides subject matter expertise to 
develop a sound technology development strategy and to ensure 
that technical requirements support mission requirements.
    Secondly, in partnership with CBP and the United States 
Postal Service, S&T is working to develop methods for exposing 
illegal mail transfers of opioid materials from foreign 
countries to the United States for distribution. S&T is focused 
on examining data related to international mail to better 
understand networks of production and consumption.
    Lastly, S&T is leading the Interagency Illicit Drug 
Detection Working Group to coordinate communications between 
government stakeholders, including DHS components, the 
Department of Defense, the Drug Enforcement Agency, and the 
Department of Justice on synthetic opioid information, such as 
seizure and profile data, approaches for detection, and best 
practices for safe handling.
    The working group, with the support of the National 
Institute of Standards and Technology, is also developing 
detection standards for illicit drugs to allow the consistent 
test and evaluation of detection equipment, inform protocols 
for operational use, and guide industry in their development of 
detection equipment that will meet the operational needs of 
DHS.
    Potential exposure to synthetic opioids presents 
significant risk to DHS frontline operators and first 
responders to provide capabilities that offer advanced warning 
to exposure to protect against potential injury. S&T will award 
Small Business Innovation Research Phase I contracts on 
wearable fentanyl sensors. The goal is to develop a device that 
warns the wearer on the presence of harmful levels of select 
opioid compounds to provide responders and frontline officers a 
window to take protective measures.
    Chairman Capito, Ranking Member Tester, and distinguished 
members of the subcommittee, thank you again for your attention 
to this important matter and for the opportunity to discuss 
S&T's work in support of this effort. I look forward to 
answering your questions.
    [The statement follows:]

                 Prepared Statement of Mr. Andre Hentz
    Chairman Capito, Ranking Member Tester, and distinguished Members 
of the Subcommittee, thank you for inviting the Department of Homeland 
Security's (DHS) Science and Technology Directorate (S&T) to 
participate in today's hearing. I appreciate the opportunity to discuss 
S&T's work in response to the opioid crisis, and our support to the 
Department's frontline operators to combat illegal drug smuggling 
overall.
    I have been the Acting Deputy Under Secretary for the last year and 
have been with S&T since 2014. Previously, I served as a Senior Leader 
and Science Advisor to the Under Secretary of S&T. Prior to my time at 
DHS, I worked at the Department of Defense's Intelligence Systems 
Support Office as the Director, Mission Support, and at the Crane-
Division of the Naval Surface Warfare Center in support of the Special 
Capabilities Office focusing on RADAR and LADAR system testing, and 
network infrastructure integration.
                     response to the opioid crisis
    I thank the committee for its support in the fiscal year 2018 
appropriation, and the funding provided to allow S&T to support the 
overall DHS response to the opioid crisis. The President's Commission 
on Combatting Drug Addiction and the Opioid Crisis final report 
recommended that DHS use additional technologies to detect and 
intercept synthetic opioids, like fentanyl, and noted, ``Our inability 
to reliably detect fentanyl at our land borders and at our 
international mail handling facilities creates untenable 
vulnerabilities.'' The physical nature of synthetic opioids, which have 
no distinguishing features that allow facile detection in obscured bulk 
samples (i.e., packaging) and which can be shipped in small quantities, 
presents an immense challenge, particularly in the context of the 
complexities of the mail process, including speed of commerce and high 
volume of mail.
    In direct response to recommendations from both the President's 
Commission and the INTERDICT Act of 2018, S&T has established a program 
in collaboration with U.S. Customs and Border Protection (CBP) on a 
phased approach to deliver improved field capabilities within 12-18 
months. The program focuses first, on operations at international mail 
and express consignment facilities. Recognizing challenges within and 
unique to the mail process, this S&T technology development program 
focuses on a layered set of solutions, which includes both detection 
hardware and advanced analytics, to create efficiencies and provide 
flexibility in deployment to the existing operational infrastructure.
    Prior to the fiscal year 2018 appropriation, S&T began planning and 
formulating the program, and included in the fiscal year 2019 
President's Budget Request funding required to begin executing planned 
activities. However, with this initial fiscal year 2018 funding 
provided by Congress, S&T can fast-track research and development of 
innovative tools, to assist frontline operators in fighting the opioid 
crisis and help close this key conduit for illicit fentanyl importation 
into the United States.
                    support to develop requirements
    As a new research and development program for S&T, this presents an 
opportunity to create baseline indicators for success, starting with 
well-defined requirements. S&T has created a working group) to 
coordinate with CBP to analyze current capabilities and develop 
operational requirements to support the Office of Field Operations' 
mission to screen and inspect packages at international mail 
facilities. These requirements, validated through the Department's 
Joint Requirements Council, will directly inform rapid research and 
development efforts to help fulfill the most urgent needs for opioid 
and fentanyl detection at those facilities with solutions versatile 
enough to be capable of detecting other illegal substances (cocaine, 
methamphetamines, etc.).
    Such traceability between the operational requirements and 
technology program will ensure that the program delivers mission 
critical capabilities in the most effective and cost-efficient manner. 
Through this process, DHS will be able to establish a baseline for 
performance and cost parameters, and this baseline will serve as a 
management tool to monitor progress.
                  collaborations for rapid innovation
    The magnitude and urgency of the opioid crisis demands that S&T 
take an innovative and collaborative approach to this research and 
development program to succeed in producing near- term deployable 
solutions that impact the supply of opioids entering the United States. 
S&T has initiated several collaborative efforts in fiscal year 2018 to 
provide impactful results within the next 12 months.
    First, S&T is partnering with CBP, with support from the Office of 
National Drug Control Policy, on a $1 million prize competition, to 
begin within 4-6 months, that challenges American innovators to develop 
novel, high-throughput screening capabilities. S&T is also scouting 
technologies that could be readily modified and represent near-term 
deployment opportunities. Additionally, the fiscal year 2018 funds will 
enable S&T, through the Transportation Security Laboratory, to evaluate 
the performance of equipment, currently used by the Transportation 
Security Administration for explosives detection, against the synthetic 
opioid threat and begin work with industry partners to expand existing 
threat libraries and develop detection algorithms for those 
technologies.
    Secondly, in partnership with CBP and the United States Postal 
Service, S&T is working to develop technical methods for exposing 
illegal mail transfers of opioid materials from foreign countries for 
distribution to domestic addresses in the United States. S&T is focused 
on examining data related to international mail (e.g. sender 
information, trans-shipment, and recipient information) in an attempt 
to better identify suspicious packages. For example, if a known 
narcotics dealer or manufacturer is sending international mail to a 
known dealer or consumer of illegal opioids, the package is considered 
suspicious. Working with the data associated with that package, it may 
be possible to better understand networks of production and 
consumption. This information will help the government work with its 
partners to increase barriers to illicit opioid trafficking. Through 
these collaborations, this effort will deliver new data-driven 
capabilities that identify high risk international mail.
    Lastly, S&T is leading the interagency Illicit Drug Detection 
Working Group to coordinate communications between various government 
stakeholders inside and outside of DHS, including five DHS components, 
the Department of Defense, the Drug Enforcement Agency, and the 
Department of Justice, on synthetic opioid information, such as seizure 
and profile data, and approaches for detection and best practices for 
safe handling. The Working Group, with the specific support of the 
National Institute of Standards and Technology, is also working on the 
genesis of detection standards for illicit drugs to allow the 
consistent test and evaluation of detection equipment and inform 
protocols for operational use. Further, these illicit drug detection 
standards generated by the Working Group will guide industry in their 
development of detection equipment that will meet the operational needs 
of DHS.
                    efforts for personal protection
    Potential exposure to synthetic opioids presents significant risk 
to DHS front line operators and first responders. To provide 
capabilities that offer advanced warning of exposure to protect against 
potential injury, S&T will award Small Business Innovation Research 
Phase I contract(s) on a wearable fentanyl sensor for alerting DHS and 
first responder personnel to the presence of harmful levels of selected 
opioid compounds. The goal is to develop a device that warns the 
wearers of the presence of fentanyl and its analogs within minutes to 
provide responders and front line officers a window to take protective 
measures. This effort complements DHS policies and procedures to 
protect the workforce and first responder community from the 
occupational risks associated with opioid exposure.
    Chairman Capito, Ranking Member Tester, and distinguished Members 
of the Subcommittee, thank you again for your attention to this 
important matter and for the opportunity to discuss S&T's work in 
support of CBP. I look forward to answering your questions.

    Senator Capito. Thank you, all three of you, very much. I 
asked Senator Tester, as my ranking member, if he would like to 
make an opening statement.

                           FENTANYL SEIZURES

    Senator Capito. Without objection we will put that into the 
record. I'll begin the questioning. I want a point of 
clarification. Mr. Owen, you said that your organization 
captured 335 pounds of fentanyl in 2017, and then HSI, another 
2,000 pounds. Is that the same year or----
    Mr. Owen. We will interdict at the border. What their stats 
reference is their investigative seizures as well.
    Senator Capito. In this country.
    Mr. Benner. Yes, that's correct.
    Senator Capito. Okay. So that's inland.
    Mr. Benner. Yes.
    Senator Capito. Okay, great. That helps me a lot.
    Let me just talk, a little bit about fentanyl. It's hard to 
imagine what 2,000 pounds of fentanyl is like, but my 
understanding is the tip of my little pinky fingernail is 
enough to be a lethal dose of fentanyl. Is that your 
understanding, or something close to that? It can be a pretty 
minimal amount.
    Mr. Benner. Yes, that's correct. So there's two dynamics at 
play when we talk about fentanyl. When we talk about the dark 
web anonymized sourced fentanyl coming from China, that's 
relatively almost 100 percent pure fentanyl, much smaller 
shipments through the international mail facilities that Mr. 
Owen described.
    On the flip side, we have the Mexican cartel fentanyl, 
which is brought across our borders in kilo-size quantities 
smuggled in passenger cars and trucks in most cases. Typically 
that fentanyl, the level of purity is between 6 and 8 percent. 
So the concern here is, as the Mexican cartels have become 
increasingly nimble and reactive to the market demands, have 
started to take on that production capability in Mexico to 
produce what you would call readily consumable fentanyl 
product, at that 6 to 8 percent range.
    Senator Capito. All right. Let me ask another clarification 
on fentanyl. Does the concentration matter in the detectability 
of it, when you're talking about wearable detectable devices or 
dogs or your agents?
    Mr. Owen. No, ma'am. The hand-held machines that we have 
that will identify the unknown substances, the purity of the 
fentanyl is not relevant there.
    Senator Capito. And those are as a result of the Interdict 
Act, right?
    Mr. Owen. We started to purchase them before the Interdict 
Act, but with the funding of the Interdict Act, we were able to 
accelerate additional purchases; yes, ma'am.
    Senator Capito. Good.
    Mr. Owen. The average seizure in the mail environment is 
500 grams of typically an unknown white substance. So you're 
talking less than half a pound that comes in, in a little 
baggie. We have no idea what it is when we discover it smuggled 
inside a book, in clothing, whatever the case may be. Again, 
1.7 million parcels a day, so there are plenty of avenues for 
this to enter the country. Those hand-held devices now allow us 
to quickly identify what is that unknown white substance or 
gray substance. And once we know it is an illegal narcotic, we 
work with our investigative partners to be able to do a 
controlled delivery and hopefully bring consequences beyond 
just the immediate seizure of the contraband.

                            MAIL FACILITIES

    Senator Capito. Let's talk about the mail a little bit. We 
have the STOP Act that we are pursuing to try to stop the flow 
in through our mail facilities. You say you have pilot 
programs. You're in a lot of the facilities right now. But this 
would require the post office to increase the detail of their 
protocol in terms of where these packages are coming from and 
what could possibly be in them. My understanding is you could 
get something from the same address in China, you could have 
300 envelopes, and 299 of them could be postcards to Grandma 
but one could be the one that's sort of buried into the--is 
that a correct----
    Mr. Owen. That's correct. The volume is overwhelming. What 
we have been working with the postal service on is to receive 
advanced electronic data on every parcel that's coming into the 
country, just like we have with the express courier companies. 
With that advanced electronic data, we can then use our 
targeting systems to identify those shipments that are more 
likely to pose a security concern, much like we do again with 
the express courier facilities.
    Senator Capito. Did you state that about 50 percent of 
those----
    Mr. Owen. We're at about 50 percent now----
    Senator Capito. With the post office.
    Mr. Owen. With the post office.
    Senator Capito. And all on the private sector are all----
    Mr. Owen. Yes. Yeah, 100 percent with the express courier 
facilities and about 50 percent now. We were only at about 8 
percent a year and a half ago with the postal service, so we've 
made significant progress. The majority of that is work we're 
doing with China in terms of China's e-parcels and e-package, 
two of the trackable mail, if you will. We're at over 98 
percent of that's electronic data. That is the threat stream 
that we are most concerned with, with the fentanyl and the 
opioids arriving from China. That is why we focused on that 
threat stream coming from China first and foremost.
    Senator Capito. Is it being diverted from China to Mexico 
and then up that way? Obviously, the mail system is direct, but 
I've been made aware that some of it is being pushed over so it 
can come up through our southern border now that we're getting 
better at detecting through the mail.
    Mr. Owen. And what we are seeing again, the Chinese 
fentanyl, the purity, 90 percent into the mail facilities. The 
Mexican fentanyl is 10 percent. We don't believe it's the same. 
We don't believe the Chinese fentanyl is going into Mexico yet.
    Senator Capito. Okay.
    Mr. Owen. But that could be a concern, Mr. Benner. I don't 
know if you have----
    Mr. Benner. Yeah, no, you're right. So what we're seeing 
and starting to see and what the future concerns are for us is 
how the Mexican cartels will adapt to assume that production 
capability in Mexico like they did with methamphetamine 15 
years ago, and all the labs were pushed out of the United 
States, and they were building super labs in Mexico. We're 
already seeing precursor chemicals for ANPP, for example, 
transshipped through the United States to Mexico to assist in 
that fentanyl production capability in Mexico. And keep in 
mind, one kilo of that 4-ANPP can produce 25 kilos of 6 percent 
pure fentanyl ready for consumption.

                             DRUG NETWORKS

    Senator Capito. Okay. Let me ask the question, Mr. Benner. 
We talked a little bit earlier before you actually testified, 
that a lot of the networks, once it's in this country, run 
right through the heart of our country and into Appalachia and 
other areas.
    Let me get a sense of what we're looking at in terms of 
networks here. Once the network comes to Ohio or Michigan, you 
told me that was sort of a spoke system, hub-and-spoke system 
that then goes into our other areas. Are those members of gangs 
or are those American businesspeople that are in illicit 
trading drugs? What does that look like?
    Mr. Benner. So the problem is actually on two levels. So 
that part of our country is being squeezed by both ends against 
the middle. You've got the fentanyl coming from China and being 
produced into pills and pill mills. And then we've got the 
Mexican fentanyl showing up----
    Senator Capito. And heroin.
    Mr. Benner. And heroin, which is actually outpacing the 
Chinese fentanyl at this moment. And what is the typical cartel 
drug infrastructure. So they have stash houses, they have 
distribution sales. Like any product or commodity that is 
imported from a foreign country for consumption typically is 
going to be consolidated at some part in the United States for 
further distribution into smaller markets, and they follow that 
model. They employ people, typically, cartel associates, lower 
level street dealers or people that are willing to do the 
transportation aspect and drive around the country and perform 
that distribution function, and it moves on down the line until 
it hits the street level in many of the areas where there's a 
demand.
    Senator Capito. Right.
    Senator Tester.

                             FENTANYL: ANPP

    Senator Tester. Yeah, thank you, Madam Chair.
    Just real quickly, ANPP, that's the active ingredient in 
fentanyl, is that correct?
    Mr. Benner. That's one
    Senator Tester. Is it used for anything else other than 
fentanyl?
    Mr. Benner. No, sir. I believe it's a Schedule II.
    Senator Tester. So you can't stop that at the border?
    Mr. Benner. We do, yes.
    Senator Tester. Okay. And can dogs locate that or 
technology locate that?
    Mr. Benner. I don't know about dogs.
    Mr. Owen. The technology can. I do not believe that dogs 
could.
    Senator Tester. Okay. So that's good stuff. Thank you. 
Thank you very much. So you've got ANPP going down to the 
ports. You've got heroin, cocaine, opioids, and fentanyl coming 
back through the ports? Is that an accurate statement? And 
marijuana is coming across between the ports for the most part? 
Is that accurate?
    Mr. Owen. Yes. Typically the hard narcotics come through 
our ports of entry.
    Senator Tester. Yeah.
    Mr. Owen. Where the marijuana comes between the ports.

                       TECHNOLOGY: DRUG DETECTION

    Senator Tester. Yeah. And so, Mr. Owen, you have the 
technology? I mean, is the technology out there to catch 
heroin, cocaine, opioids, and fentanyl?
    Mr. Owen. We have the technology that helps us identify 
anomalies in the conveyance or in the cargo, and then we can 
identify what those anomalies are; yes, sir.
    Senator Tester. Perfect. So if you're developing a budget, 
or in this case, we're massaging your budget, do you have 
adequate dollars for technology at the ports and the adequate 
manpower to stop every car and every truck and not hold them 
there for hours and hours and hours until you have to release 
them, whether it's at the northern border or the southern 
border, to be able to take care of this problem?
    Mr. Owen. No. The volumes are just overwhelming, again 
285----
    Senator Tester. Okay. I got you, and I appreciate that, and 
I don't mean to cut you off, but--so is this a problem that's 
solvable?
    Mr. Owen. I believe that to solve this problem, we need a 
comprehensive approach from supply to demand.
    Senator Tester. Okay.
    Mr. Owen. I believe if we're focusing everything at 
interdiction at the border----
    Senator Tester. Yep.
    Mr. Owen [continuing]. Then we will fail.
    Senator Tester. Okay. So the U.S. marshal in Montana told 
me that--we've got our share of drug problems up there, too. He 
told me that most of the stuff is coming through the ports. 
It's our job here at the Homeland Security Committee to make 
sure that you have the resources to be able to stop this crap 
from coming in. And I'm not going to tell you, because I think 
you're more of an expert on the ground, but we've got to 
approach it from every angle, and if we're letting a certain 
percentage through on the ports, we should be striving for 
zero, don't you think?
    Mr. Owen. Agreed.
    Senator Tester. Yeah. And so we need to have a budget that 
will get us there.
    Mr. Owen. Yes.
    Senator Tester. And if it doesn't, you need to be honest 
with us, because this is a huge problem we're spending a bunch 
of money on. If we can do it, that would be very, very good.

                            MAIL FACILITIES

    I want to talk about the mail real quick. And I think it's 
again, you, Mr. Owen, but it could be you, Mr. Benner, or if 
it's you, Andre Hentz, it might be you. But do we have the dogs 
available in the mail facilities to be able to catch this crap 
that's coming in by the mail?
    Mr. Owen. Yes. We have trained all of our K9s now to be 
able to detect fentanyl.
    Senator Tester. Okay. You've got the K9s trained. Are there 
enough of them?
    Mr. Owen. There can always be more K9s that we could use 
specifically at the mail facilities. With the increase of our 
328 officers this year that you funded in 2018, we're looking 
at how we would distribute those officers. The emergent threat 
area is significant. We are looking at plus-up the staffing of 
the K9s at the mail facilities.
    Senator Tester. Okay. So--and once again, Mr. Owen, I've 
got an anti-drugs act that's going to help with Operation 
Stonegarden grants, most of the funding for that, most of the 
money for the HIDTA program. The question is, is that, have you 
worked with any of those programs?
    Mr. Owen. The Office of Field Operations does not 
administer Stonegarden. The Border Patrol----
    Senator Tester. So you can't tell me if they're effective 
or not?
    Mr. Owen. I can't speak to Stonegarden.
    Senator Tester. How about you? Anybody at the panel tell me 
if they're effective?
    Mr. Benner. No, Senator. We don't.
    Senator Tester. Okay. That's good enough. Hang on here for 
just a second.

                         DRUGS: NORTHERN BORDER

    There's counterfeit drugs, big story, coming across from 
Canada, Calgary production lab, pumping out about 18,000 
counterfeit OxyContin per hour. Do you have the ability to stop 
these drugs coming in from the north?
    Mr. Owen. From the north, we again have the same technology 
we do on the south. The threat is much less coming in from 
Canada.
    Senator Tester. Yeah.
    Mr. Owen. We do have the same type of detection 
capabilities on the northern border as we do the southern 
border.
    Senator Tester. In all the ports?
    Mr. Owen. In all of the reasonably sized ports, yes.
    Senator Tester. And on the southern border, is it in all 
the ports?
    Mr. Owen. Again on the reasonably sized ports. We have, you 
know----
    Senator Tester. So if I'm a crook, wouldn't I go to the 
small ones?
    Mr. Owen. Because the volumes are so low and the crossers 
are routine, people coming to work every day, the officers know 
something that would be outside of the norm. So those very 
small ports, it's the same traffic going back and forth to work 
and school every day.

                         SECONDARY INSPECTIONS

    Senator Tester. And they have the capability to ship those 
to a different port and not let them through, say, ``If you 
want to go through, you've got to go through on the northern 
border, go through Coutts or go through Raymond. You can't go 
through Whitlash. Right? I mean, you hear what I'm saying. They 
have the ability to say, ``No, you're not coming. We're not 
going to allow you through. If you want to get through the 
border, you've got to go down 150 miles and hit a bigger border 
crossing.''
    Mr. Owen. Well, what we would do is anyone that raises a 
concern, we perform a secondary inspection as they cross. We 
wouldn't deny them the ability to cross and tell them to go 
elsewhere. So we may not have the large-scale x-ray systems, 
but then we would perform what we call a 7-point inspection on 
the vehicle, different areas we check, the dogs that we would 
use, the interviewing of the driver, different skills, so----
    Senator Tester. And there are dogs at these ports, too, 
even the small----
    Mr. Owen. Not at every port; no, sir. Not at every port.
    Senator Tester. So how confident do you feel that we're 
really--because, look, I mean, they're going to go to the 
weakest link in the fence, the bad guys are, whether you're a 
terrorist, whether you're trying to smuggle people or drugs, it 
doesn't matter, they're going to go to where they think they 
won't get caught.
    Mr. Owen. Right.
    Senator Tester. How comfortable are you with that approach?
    Mr. Owen. I think the layers that we have are effective. I 
think you stand out more in a small port if you're not from the 
area. If you have someone we see----
    Senator Tester. Yeah, but if you're inspecting them without 
dogs and just using your eyes, and you don't have the 
technology, isn't that kind of like an open the door and let 
them in? I mean, I'm not speaking----
    Mr. Owen. Right.
    Senator Tester. Look, you guys do great work. I'm not 
speaking ill at all of the folks who are on the border. You 
guys are the best. But the truth is you're only human, and 
without that technology and without those dogs sniffing, do you 
really feel comfortable doing----
    Mr. Owen. I think in the low-volume ports.
    Senator Tester. Yes.
    Mr. Owen. The experience and the intuition of the officers 
meets our needs.
    Senator Tester. Okay.
    Mr. Owen. In the higher volume, I agree with you, we need 
the technology and the K9s, and we do have that at the larger 
volume ports.
    Senator Tester. Okay. So just one last question, and the 
answer can be very, very quick. Are there circumstances where 
the traffic gets backed up so far that you guys cannot hold 
them any longer, and you just say, ``Go ahead and go. We can't 
inspect you''.
    Mr. Owen. No.
    Senator Tester. Every car, every truck, that comes through 
those ports are inspected.
    Mr. Owen. Every car and every truck that comes through is 
presented for a CBP officer. We run the documents. We do that 
initial interview. Not every car and every truck gets sent to a 
full secondary inspection, which takes much more time.
    Senator Tester. Yeah.
    Mr. Owen. But we do not allow folks just to come in. They 
have to present themselves to a CBP officer. We do that initial 
screening. And then we decide, is this someone that the risk is 
low enough? Do their documents match up? Have we seen them 
before? And we send them on their way. Otherwise, they go in a 
secondary. But, yes, everyone is presented before a CBP 
officer.
    Senator Tester. All right. Thank you. Thank you for all 
your work.
    Mr. Owen. Thank you.
    Senator Capito. I'm going to run over to another 
subcommittee very quickly. I hate to leave even for a minute 
because I appreciate what we're hearing. Senator Tester is 
going to take over for me.
    But I want to recognize Senator Murkowski.
    Senator Murkowski. Thank you, Madam Chairman, and thank you 
for gathering these individuals, these gentlemen, this 
afternoon for this testimony. It's very, very important, as you 
say.

                        DRUGS: REMOTE LOCATIONS

    You know, Senator Tester, you talking about some of the 
more remote places, and if they're smaller, are we not being as 
vigilant--I mean, the bad guys' job is to find those weak links 
if you will. You know, we're seeing this play out in rural 
America, we're seeing it on our reservations, we're seeing it 
in remote places like Alaska, where you've got--you have 
potential for a captive market out in very remote areas.
    I was just out on Kodiak Island. Kodiak is the second 
largest island in the United States. It happens to be the third 
largest fishing port by volume in the country. So there's a lot 
that goes in Kodiak, but in fairness, it's a population of 
about, I don't know, 5,000 people or so. But what has happened 
is it is a very, very convenient market for the bad guys, those 
that want to move their drugs, to have this captive market 
coming in, and they cultivate it, and it ruins a community.
    Kodiak is a pretty resilient little community, but we've 
got some drug issues that most Alaskans would just not want to 
believe exists. And the deal with Kodiak, it is an island. 
There are no roads in, so you are either flying the drugs in by 
small plane or the two commercial airlines that are there, or 
you are coming--you're bringing this stuff in by the mail. So 
you would think that we would be able to see very clearly where 
it comes in and intercept and choke it off. And so I want to 
ask some questions.
    And, Mr. Hentz, your focus there on the role of the 
technology and what we can be doing and how we can do more with 
just smart technology and detection. So the question for you 
is, the focus is really on these higher volume ports of entry, 
and I understand that. But I also recognize that when you have 
smaller communities the legs are literally cut out from 
underneath when you've got drugs that are available for perhaps 
the first time ever. The community of Quinhagak: 800 people, 4 
fentanyl overdoses, 1 death. Quinhagak is so far removed from 
most of America, people don't even know it exists.
    And so I want to make sure that as we're focusing on 
choking off that source of supply in these bigger ports, that 
we are not moving our focus also away from the smaller ports of 
entry, whether it is Anchorage, which, in our view, is pretty 
big, we see things coming in through the cargo terminal there 
at Anchorage, the fifth largest in the world. And so how we are 
using the technologies in places that are not as high profile 
within the agencies to make sure that we're not cracking the 
door too far open in the more rural areas of the country. And 
this is not just Alaska, but in places like Montana as well.

                       DRUG: RESOURCE MANAGEMENT

    Are we getting the resources that we need, whether it's 
dogs or whether it's the technology? Or is the focus going to 
be we're going to look at the higher volumes here, and we're 
just going to hope that we get it so that it doesn't come in 
the door because we lack sufficient resources to do all the 
tracking at all the places that we need to do? That's kind of a 
broad-ranging question, but it goes to the heart of my problem, 
which is we're not a very big population, but we're getting 
impacted like everybody else in the country, and we're a pretty 
attractive market for these bad guys that would prey.
    Mr. Hentz. Senator, thank you very much for the question. 
So for the $6 million that the committee was able to get to S&T 
for fiscal 2018, let me tell you a little bit about how we're 
managing that. First of all, there's a lot of very basic 
science that has to be conducted. So unlike our explosive 
detection capabilities that you might see in our airports, 
those larger ports of entry, right now there is very educated 
explosive detection libraries, for example. However, when it 
comes to something like fentanyl, there are no repositories, no 
national libraries of signatures, trace detections, or anything 
like that.
    So the fact is the basic science has to be done, and that's 
not something that an infusion of resources can necessarily 
accelerate. There are literally hundreds of combinations of 
fentanyl and analogues that might find themselves finding a way 
into our population.
    So the first thing we have to do is make sure that the 
standards work that we're doing in partnership with CBP and ICE 
are products that can be translated into areas like Alaska, 
Montana, New Hampshire, and otherwise. So first we want to make 
sure that those first responders, that the equipment that they 
are procuring is appropriate in the area of detection. We need 
to ensure that those detection regimes are just as solid as our 
explosive detection regimes. So to the extent that we----
    Senator Murkowski. But what you're saying is that it 
changes.
    Mr. Hentz. It does.
    Senator Murkowski. And so the question is, is whether or 
not we are current with those technologies.
    Mr. Hentz. So right now, working with the requirements that 
we have from CBP and ICE, we have a very good focal point of 
activity that we're going to go after. But then there is also 
the work that we'll do at the Chemical Security Analysis Center 
that will additionally inform other ideas about where emergent 
compound elements that feed fentanyl are coming from and what 
we can anticipate in those smaller market areas as we become 
more educated in the big markets, like Detroit is, where 
Ranking Member Capito talked about. So as we become smarter in 
those areas, there will be a natural evolution, as Ranking 
Member Tester alluded to, where the adversary will go to other 
markets.
    We need to get in front of that, and the way that we're 
going to do that is by developing a sound portfolio of research 
and development, we're going to work with the interagency, both 
the DEA, Department of Defense, and others to ensure that those 
artifacts get proliferated into those smaller market areas.
    Senator Murkowski. My time is expired is Mr. Chairman. 
Thank you.
    Senator Tester [presiding]. Yep.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.

                           OPIOID: OVERDOSES

    And thank you all very much for what you're doing to 
address this crisis. In New Hampshire, we have the third 
highest rate of overdose deaths from the opioid epidemic in the 
country. We were second, but fortunately we have now dropped to 
third because Ohio is now second. But we do have the highest 
rate of fentanyl overdose deaths in the country. And as we look 
at the potential for fentanyl, as you all have pointed out, 
because it can be diluted because it's so strong, and can be 
diluted in such a way that creates many more overdoses, it's 
much more concerning in the long term.

                        OPIOIDS: NORTHERN BORDER

    Mr. Owen, I think it was you who responded to Senator 
Tester's question about the northern border. And while we don't 
have as long a northern border with Canada in New Hampshire as 
Montana does, it is a place where we are concerned about what's 
coming over that border from Canada. So can you talk about to 
what extent you're seeing fentanyl or other opioids coming 
across the border from the north?
    Mr. Owen. Well, we've had very few seizures coming in from 
Canada. So a few in Buffalo, a few in Detroit, but we have not 
seen a great deal of the fentanyl or the opioids coming in from 
Canada. I will tell you, though, that the Canada Border 
Services Agency is experiencing the same thing that we are in 
terms of their mail facilities are receiving the fentanyl, the 
opioids, directly from China, and they're struggling to keep it 
there, too.
    So I don't believe that the issues that we're facing is 
coming in from Canada, it's just arriving directly into our 
mail facilities here.
    Senator Shaheen. And to what extent are we pressuring China 
to do something to address that? I don't know who wants to 
answer that.

                          CHINESE COOPERATION

    Mr. Benner. Yeah. Thank you, Senator. So I spoke to our 
agents in China this week, and to get a sense of where we were 
on kind of the continuum of cooperation because many of our 
domestic investigations, especially in the cases that involve 
pill mills, have a direct tie to that source of supply. And 
what I'm told, that due to the high level of engagement most 
recently by this administration, that they've seen a big swing 
in the level of cooperation of our investigations and a 
willingness by their Narcotics Control Bureau to actually work 
investigations with us.
    And, you know, I talked about, in my opening, about pushing 
our borders out and doing as much work as we can before our 
borders. And they've been, I'd say, increasingly willing to 
assist us.
    Senator Shaheen. ``They'' meaning the Chinese.
    Mr. Benner. The Chinese law enforcement, yes, in terms of 
obviously making some of these substances that Mr. Hentz 
referred to as changing every day, making them controlled in 
China, for example, and doing that rather quickly. The 
availability of those precursor substances is very, very robust 
in China. So the assessment that we have is promising in terms 
of law-enforcement-to-law-enforcement investigative 
cooperation, specific investigations where we've asked for 
assistance.
    Senator Shaheen. Good. That's encouraging. Do you have data 
that you can share with the committee?
    Mr. Benner. So I have several investigations that I could 
share with you in a more private environment that would 
actually show the level of engagement of the Chinese 
authorities in terms of not just the source of supply and 
taking that part down, but also addressing the illicit finance 
piece. So where's the money going? And who's seizing the money? 
And how are we shutting down the point-to-point transfer of 
money, whether it's through money service businesses or through 
the cryptocurrency Bitcoin transactions, which obviously are 
even more challenging? And we need their help.
    Senator Shaheen. Mr. Chairman, I would encourage you and 
Senator Capito to set up a classified briefing where we can get 
that kind of information. That would be very helpful.

                       NARCOTICS: CANINE SUPPORT

    Mr. Owen, you talked about the training of the dogs who 
sniff out opioids. So do we now have to be concerned about dogs 
being overdosing on fentanyl in the same way that we are about 
officers?
    Mr. Owen. No. We have those same concerns. There is always 
the risk of an accidental exposure by the canine teams. And 
we've deployed narcotics detection dogs for decades. We've also 
deployed the Narcan with our canine handlers. So we do have 
canine naloxone, canine Narcan, if you will, so should the dog 
become exposed, we can treat him or her right away. We also, 
about 10 years ago, trained and changed the response of our 
canines. We used to have what was called a positive response, 
where the dogs would more aggressively try to tear and bark and 
pick at the substance. Obviously, that could increase the 
likelihood of an accidental exposure.
    Senator Shaheen. Sure.
    Mr. Owen. All of our dogs now are trained in a passive 
response, where they basically sit, and that is the alert to 
the handler. So we do have the proper training in place. We do 
have the medical equipment, if you will, should there be an 
accidental exposure.
    Senator Shaheen. And is Narcan administered to dogs in the 
same way it's administered to people?
    Mr. Owen. No. It's an injection for the dogs versus a spray 
for the people.
    Senator Shaheen. I was trying to figure out how you were 
going to get that spray in the dog's nose.

                OMNIBUS FUNDING: SCIENCE AND TECHNOLOGY

    Mr. Hentz, you responded, I think, to Senator Murkowski--I 
think you were talking about the funding that's in the omnibus, 
the 65 million in the omnibus, to be used for interdiction at 
our ports and for the technology that we need to do that. Is 
that what you were talking about? And can you elaborate on what 
you're thinking about in terms of using that money that was put 
in the omnibus?
    Mr. Hentz. No, Senator, I was not talking about the omnibus 
funding. What I was speaking specifically about was S&T's 
funding.
    Senator Shaheen. Okay. Never mind. So tell me about the 
omnibus. Can you tell me about what you are thinking in terms 
of the omnibus funding?
    Mr. Hentz. Yes, ma'am. So what we plan to do is, for the 
funding that we have, there's a three-pronged approach. The 
first is to work on technology enhancements to ascertain the 
appropriateness of use of existing screening capabilities in 
our national screening system. So, for example, computed 
tomography machines or the advanced x-ray machines, what we're 
going to do is try to come up with test regimes that will 
determine whether or not those are appropriate to detect things 
like fentanyl. So we seek to invest about $2 million in that 
endeavor.
    The second part is going to be across data analytics. You 
heard Commissioner Owen talk about the need to do sourcing on 
the dark web and in other places to be able to get ahead of the 
crime before it emerges here in the States and make connections 
between networks and others. So inside of our data analytics 
engine, what we're doing is working with CBP to see how we can 
go about using that data to better operationalize the 
information for interdiction purposes, both for CBP and ICE.
    And then, finally, earlier I alluded to the fact that we 
wanted to try to excite industry, the innovation community, to 
bring technologies to bear to assist us in this problem domain. 
So for the last $2 million, what we seek to do is go out with a 
prize competition for the innovation community, industry, 
academia, and others to bring solutions to bear, and also for 
the fentanyl detector, wearable, that I alluded to earlier.
    Senator Shaheen. That's great. I hope you'll consider the 
SBIR program as part of what you're doing there.
    Mr. Hentz. It is. So that is one of the things, for the 
fentanyl, a wearable fentanyl detector.
    Senator Shaheen. Right. Thank you.
    Thank you, Mr. Chairman.
    Senator Tester. Senator Lankford.
    Senator Lankford. Thank you.
    Gentlemen, thank you. Thanks for all the work that you're 
doing to be able to keep our Nation safe. We've got 60,000-plus 
Americans died from overdoses to drugs last year, so there are 
a lot of lives on the line counting on what you're doing. And I 
appreciate what you're doing very much to be able to help us in 
that long term.

                        NARCOTICS: PORT OF ENTRY

    I want to talk about some of the interdictions and the 
locations. Some of you had mentioned a high level of 
interdictions at our ports of entry. Can you give me an 
estimate on what the percentage is of interdictions of 
narcotics at our ports of entry?
    Mr. Owen. In terms of the hard narcotics, the majority of 
the hard narcotics are seized at the ports of entry as opposed 
to between the ports of entry, where more marijuana is seized.
    Senator Lankford. Why do you think that is?
    Mr. Owen. I think because they will work the numbers, 
they'll work within the volumes. So you have your cargo 
shipments that come in, you're more likely to have your larger 
loads of cocaine in the cargo shipments. Things such as liquid 
methamphetamine, you're going to put that inside gas tanks of 
vehicles and things like that. And Port of San Ysidro, which is 
our largest land border crossing in the country, 100,000 people 
a day cross that port, and 40,000 cars, so the volume is there, 
and it presents an opportunity, which is why I think you see 
more hard narcotics smuggled through the ports of entry.
    Senator Lankford. Okay. The resources that you need to be 
able to help stop that flow, obviously, Secretary Nielsen has 
said before you've got to get farther--you've got to push the 
border out farther to be able to help with local law 
enforcement in Mexico and other places to be able to help us 
determine what to be able to watch for. How is that working for 
you on pushing the border out farther to be able to determine 
that, and the technology that you need at the border?

                      NORTHERN BORDER: COOPERATION

    Mr. Owen. In terms of the cooperation at the Mexican border 
with our counterparts in Mexico, we have good, strong 
cooperation with them. In terms of the investigations side, I 
can defer to Mr. Benner.
    Mr. Benner. Yeah, we have a Transnational Criminal 
Investigative Unit in Mexico, for example, that is comprised of 
host country law enforcement that we vet and train here at 
FLETC and kind of act as our operational arms in Mexico with 
our special agents that are in Mexico as well.
    So on a specific investigation-to-investigation basis, 
we're able to move a lot faster on a criminal network because 
we're addressing it on both sides of the border together, and 
that's made a huge difference, real-time information sharing as 
well. So based on a seizure that occurs at a port of entry, our 
agents respond, and if we can share data in a real-time way 
with our partners on the other side downrange, then we're 
attacking both ends of that network at the same time.
    The one--I'd say the one weakness we have I think at this 
point in terms of deployment is we need to put more 
intelligence analysts overseas with our special agents to make 
that connection of intel-to-intel and do that case support.
    Senator Lankford. Is that part of your request this time?
    Mr. Benner. So we do have--of the 212 non-special agent 
requests that's in the President's budget, some of those are 
analysts. We provided some technical assistance in the last 
couple weeks in terms of fentanyl and opioids and the drug 
issue as well.

                          FENTANYL PRODUCTION

    Senator Lankford. Okay. Two other big issues I want to be 
able to talk about. One is the production of fentanyl. It's 
happening in Mexico. It's happening in China. All the precursor 
materials. What is to stop that production from moving to the 
United States? And what are we doing to be able to help stop 
the production here rather than the production overseas and 
trying to cross our border in? If, for instance, some of the 
precursors are coming to the United States, then shipped to 
Mexico, then what's to stop it just being produced here?
    Mr. Benner. So the precursors we've seen very little so far 
transshipped through the U.S. We believe the precursors are 
going--similar to the methamphetamine days, are going directly 
from China to Mexico.
    Senator Lankford. But now Mexico is producing their own, 
and it's transitioning.
    Mr. Benner. Right.
    Senator Lankford. What's to keep that from transitioning 
one more step and just moving it to production in the United 
States?
    Mr. Benner. So the only production that I think we'll 
continue to see in the United States is the pure 90 to 100 
percent pure fentanyl that comes in the mail, and pill mills 
are the production facility here in the United States. And so 
these are just what I call the entrepreneurial effect of you 
don't need to know a cartel member anymore to start a drug 
operation and make a lot of money. You need the Internet, you 
need the dark web, you need some expertise in cryptocurrency 
and Bitcoin, and the rest of it you can order from suppliers 
because other than the fentanyl, the fillers and the dyes and 
all of that is otherwise, legally purchased.

                         DARK WEB: TRAFFICKING

    Senator Lankford. So what are we doing currently to be able 
to prepare for that to make sure that that does not occur?
    Mr. Benner. On the Mexico piece?
    Senator Lankford. No, on ours, on the United States.
    Mr. Benner. Oh, on our end. So we're all in, in terms of 
the dark web investigations. And our Cyber Crime Center here in 
Fairfax is kind of the hub of that activity. And that's where 
we're focused, is the online illicit marketplaces and 
dismantling those marketplaces in conjunction with the illicit 
payment mechanisms, too. So money service businesses, 
cryptocurrency, the Bitcoin exchanges, which most of the 
legitimate ones are subject to AML provisions. The peer-to-peer 
ones are not. And so those are operating out there as well. So 
we're working it on both fronts.

                      PORTS OF ENTRY: TRAFFICKING

    Senator Lankford. Okay. So let's talk about more 
traditional movement of money. There's a latest estimate that I 
saw, about $100 billion is moving from the United States into 
Mexico based on illicit drug trafficking. That's a movement of 
a lot of cash. And there's a lot of southbound cash and 
southbound guns moving out of the United States into Mexico. 
We've talked a lot about what's moving north. How are we doing 
interdicting what's moving south?
    Mr. Owen. Well, at the ports of entry, we do set up 
outbound operations on a ``pulse and surge'' basis. Last year, 
we seized $42 million going outbound into Mexico. So you do see 
the currency smuggled in vehicles and buses going south, just 
as you see the narcotics smuggling, the same patterns, coming 
into the United States. So we do set up ``pulse and surge'' 
again because once we're out there for an extended period of 
time, they will just wait us out or move. So based on 
intelligence, based on other factors, we will set up and again 
try to take down the movement of the currency.
    Senator Lankford. What do you need? Obviously, $42 million 
is no small amount, but you compare that to $100 billion that's 
moving in that direction, what do you need?
    Mr. Owen. When you look at the outbound infrastructure at 
our ports of entry, it is not like the inbound where we have 
primary booths, we have the technology, and we have the means 
to stop the vehicles. Everyone gets presented before a CBP 
officer. On your outbound, most of these roads lead directly 
into Mexico, you stop to pay your toll, and then go right into 
Mexico.
    Senator Lankford. Mexican authorities are not interested in 
being able to inspect what's coming southbound?
    Mr. Owen. I think Mexico has a different risk assessment 
than we do, and they focus where they can, they stop what they 
can. But, again, it's the volume, when you look at the overall 
overwhelming volume there. But having more of an outbound 
infrastructure to sustain outbound inspections would be 
helpful.
    Senator Lankford. Okay. Thank you.
    Mr. Benner. So we're trying to help CBP with that, create a 
target-rich environment for that resource of outbound. So I'll 
give you an example. In Ohio, in the middle of America, where 
we're seeing cartel fentanyl showing up in kilo quantities from 
the border, well, we're also seeing the bulk cash that's 
associated with that consolidation point of those sales. So as 
we're working that piece of the narcotics piece, we're also 
working on task forces to follow the money away, and we're able 
to work with CBP to say, ``Hey, these vehicles are coming,'' 
and we can actually set up operations to address the outbound 
smuggling of the bulk cash as well.
    Senator Capito [presiding]. Next is Senator Boozman.
    Are you going to do your----
    Senator Boozman. I'll submit to the record.
    Senator Capito. Senator Boozman is going to submit for the 
record.
    Senator Baldwin. Unfortunately, we are right under the time 
limit for our vote. I am going to say goodbye and thank you, 
rather than keep you here through what could be an extenuated 
period.
    Senator Baldwin.

                        CBP AND FDA COORDINATION

    Senator Baldwin. All right. I'll try to do speed questions, 
and then follow up for the record.
    So I authored bipartisan legislation with Senator Cassidy 
that would give the Food and Drug Administration (FDA) more 
tools to prevent illegal fentanyl, opioids, and other 
counterfeit drugs from entering the country through our 
international mail facilities, and to enhance coordination 
between the CBP and the FDA. Specifically, it would clarify for 
FDA that it is CBP's role to manage the entry of any 
counterfeit drug product or package containing a controlled 
substance.
    CBP plays an important role with FDA in stopping illegal 
drugs at our borders, but gaps remain as the majority of 
seizures of fentanyl take place through the international mail. 
In fact, reports show that between 2016 and 2017, IMFs had more 
than five times as many fentanyl seizures as port officers at 
land ports of entry.
    So, Mr. Owen, can you describe the scope of this problem at 
international mail facilities and CBP's role, including your 
work with FDA in preventing the entry of the growing number of 
packages with illicit fentanyl and other illegal opioids?
    Mr. Owen. Yes. When we talk about the international mail 
facilities, there are six primary international mail facilities 
where all arriving foreign mail will go to. There are three 
smaller ones, but we're talking primarily the six big ones: 
JFK, Miami, Chicago, San Francisco, LAX, et cetera. All of the 
international mail that comes in is presented for CBP. All of 
it is scanned for radiation. And then we've been working with 
the postal service for 2 years to get advanced electronic data 
on all of that mail, so we can effectively target those parcels 
that are more likely to present a risk. We're at over 50 
percent now. We were at 8 percent 2 years ago. So we're moving 
in the right direction. We'll be at over 70 percent by the end 
of the calendar year.
    Having that advanced electronic data is absolutely 
essential because the alternative is to manually try to search 
through when it comes to 1.7 million parcels a day right now. 
When I last testified on this topic in January, we were at 1.4 
million. So just in the course of 3\1/2\ months, we've 
increased by 35 percent. So because of e-commerce, the volume 
through our mail facilities is going to continue to increase. 
We have to continue to work with the postal service to get that 
electronic advanced information to target.
    Now, once we target a shipment, the postal service needs to 
present it. They've had some challenges being able to locate 
every package. They have made significant improvements in the 
past 6, 7 months, and we've had the pilots with them. Once we 
find that substance then, we have to identify what it is 
because most of it comes in misdescribed or something else. We 
have the technology now to be able to identify what that is. 
And the role with the FDA is when we believe we have 
counterfeit pharmaceuticals, we provide that to them to make 
the determination and take the enforcement action. So any 
controlled substances, anything illegal, stays with us; any of 
the pharmaceuticals, prescription drugs, will go to the FDA.
    I will tell you that we have a very strong relationship 
with the FDA and all of our mail facilities, they are a very 
strong partner. They are committed to this fight. They have 
very strict resource limitations within their mail facilities 
as well.
    Senator Baldwin. So the legislation that I just described 
to you that I have with Senator Cassidy to enhance FDA's work 
at the Illicitly Manufactured Fentanyl (IMFs) helps streamline 
the process to address large packages that contain a mixture of 
counterfeit drug products. It would direct the FDA to send any 
counterfeit package that also contains a controlled substance 
to CBP for refusal or detention. I'm wondering if you can 
explain how this clarification would help CBP in stopping the 
flow of opioids through IMFs.
    Mr. Owen. Well, I think whenever we have a timely referral 
of illegal substances that allows us to take action beyond just 
the interdiction, we work with our investigative partners to be 
able to do controlled deliveries. So as long as FDA is working 
well with CBP, we refer something to them because we believe 
it's a pharmaceutical product, they refer it back and say, no, 
their testing reveals it's actually this, this controlled 
substance. As long as that process occurs timely, then we have 
the opportunity to deliver consequences to those that tried to 
arrange to bring the substances. That's where we work with our 
criminal investigators with HSI that can go out and take their 
actions and, again, try to deliver consequences to who is 
ultimately responsible for the arrival of that package. Simply 
interdicting is not enough.

                       PORTS OF ENTRY: SHIPMENTS

    Senator Baldwin. Yeah. Last week, during her appearance 
before this subcommittee, I questioned Secretary Nielsen and 
discussed the primary source of illegal fentanyl, namely, 
China, and the need to do more to address the Chinese shipments 
of the drug through our IMFs.
    Mr. Benner, you note in your testimony that Mexico is a 
source of illicit fentanyl as a transshipment country for Asia 
or from Asia, with the drug then smuggled into the United 
States through our ports of entry.
    Given the primary role that IMFs and ports of entry play in 
the introduction of illicit fentanyl into our country, do you 
agree that we should be focusing and prioritizing our 
interdiction efforts on those ports of entry, entry points?
    Mr. Benner. Yeah, absolutely. And I think it's--you know, 
CBP and HSI work hand-in-glove on this, sharing real-time 
investigative data back to CBP to help inform their targeting 
mechanisms at the ports of entry. So the more our investigation 
expands in the interior, then the more we can share back with 
CBP through the National Targeting Center, where we're sitting 
side by side with them and actually inform their targeting 
procedures at the ports of entry. So absolutely.
    Senator Baldwin [presiding]. Because I have to run to vote, 
I'm just going to state the last question. You do not have to 
answer it now, but I would be very interested in hearing more 
after the fact. I'm really interested in hearing the current 
process between CBP and FDA at ports of entry when handling new 
synthetic formulations of illegal drugs that are not yet 
scheduled, and if CBP has encountered challenges in dealing 
with these things that are of great concern.
    So thank you and I am going to close out. If there are no 
further questions--I'm going to have some fun with this on 
behalf of Chairman Capito and Ranking Member Tester, this 
concludes today's hearing.
    Mr. Owen, Mr. Brenner and Mr. Hentz, we appreciate your 
appearing before this subcommittee. The hearing record will 
remain open for 2 weeks from today. Senators may submit written 
questions for the record. And we ask that the Department 
respond to them within a reasonable amount of time.
    Clerk Note: [No questions were submitted].

                          SUBCOMMITTEE RECESS

    Senator Baldwin. This subcommittee stands in recess.
    [Whereupon, at 3:40 p.m., Wednesday, May 16, the 
subcommittee was recessed, to reconvene at a time subject to 
the call of the Chair.]
</pre></body></html>
